                                 SENSITIVE BUT UNCLASSIFIED




                  UNITED STATES DEPARTMENT OF STATE
              AND THE BROADCASTING BOARD OF GOVERNORS
                             OFFICE OF INSPECTOR GENERAL


AUD-HCI-14-24                                 Office of Audits                                      June 2014




 Audit of Contractor Compliance With and
    Department of State Oversight of the
 Process Required for Vetting Local Guards




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization
by the Inspector General. Public availability of the document will be determined by the Inspector General under
the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative
penalties.

                                 SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

                                                               United States Department of State
                                                               and the Broadcasting Board of Governors

                                                               Office of Inspecto r General




                                            (U) PREFACE

       (U) This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        (U) This report is the result of an assessment of the strengths and weaknesses of the
office, post, or function under review. It is based on interviews with employees and officials of
relevant agencies and institutions, direct observation, and a review of applicable documents.

        (U) The recommendations therein have been developed on the basis of the best
knowledge available to OIG and, as appropriate, have been discussed in draft with those
responsible for implementation. It is my hope that these recommendations will result in more
effective, efficient, and/or economical operations.

          (U) I express my appreciation to all of those who contributed to the preparation of this
report.




                                                (U) Norman P. Brown
                                                (U) Assistant Inspector General
                                                     for Audits




                                  SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



(U) Acronyms
(U) AQM        Bureau of Administration, Office of Logistics Management,
                  Office of Acquisitions Management
(U) ARSO       assistant regional security officer
(U) COR        contracting officer’s representative
(U) DS         Bureau of Diplomatic Security
(U) FAH        Foreign Affairs Handbook
(U) FAM        Foreign Affairs Manual
(U) FSNI       Foreign Service National Investigator
(U) LGF        local guard force
(U) LGP        Local Guard Program
(U) OIG        Office of Inspector General
(U) RSO        regional security officer
(U) SBU        Sensitive But Unclassified
(U) U          Unclassified




                     SENSITIVE BUT UNCLASSIFIED
                                                SENSITIVE BUT UNCLASSIFIED


                                                              (U) Table of Contents
Section                                                                                                                                Page

(U) Executive Summary ..................................................................................................................1

(U) Background…. ..........................................................................................................................3

(U) Objective……. ..........................................................................................................................7

(U) Audit Results ............................................................................................................................7
      (U) Finding A. Security Contractors Did Not Fully Comply With Contract
                          Requirements for Vetting Local Guards at Overseas Posts .......................7
      (U) Finding B. Regional Security Officers Did Not Always Document Oversight,
                          and Vetting and Approval Processes Varied at Each Post Audited .........17
      (U) Other Matters ...............................................................................................................20

(U) List of Recommendations........................................................................................................24

(U) Appendices
      (U) A. Scope and Methodology …………………………………………………………26
      (U) B. Outline for Action .........………………………………………………………….30
      (U) C. Security Validation Form ...................……………………………………………36
                        [Redacted] (b) (5), [Redacted] (b) (7)(F)
      (U) D. Embassy                                              …………………………………………………….37
                       [Redacted] (b) (5), [Redacted] (b) (7)(F)
      (U) E. Embassy                                              ……………………………………………………39
                                   [Redacted] (b) (5), [Redacted] (b) (7)(F)
      (U) F. Embassy                                        ………………………………………………………..43
                      [Redacted] (b) (5), [Redacted] (b) (7)(F)
      (U) G. Embassy[Redacted] (b) (5), [Redacted] (b) (7)(F) ………………………………………………………44
      (U) H. Embassy                                            ………………………………………………………46
                        [Redacted] (b) (5), [Redacted] (b) (7)(F)
      (U) I. Embassy                                               ………..…………………………………...…… 48

(U) Major Contributors to This Report ..........................................................................................49




                                                SENSITIVE BUT UNCLASSIFIED
                                       SENSITIVE BUT UNCLASSIFIED


                                            (U) Executive Summary
              (U) Because of growing security threats at posts worldwide, the Department of State
      (Department), Bureau of Diplomatic Security (DS), has augmented security at overseas posts
      through the Local Guard Program (LGP), which engages security contractors to provide local
      guard force (LGF) personnel to secure access to posts and provide building and residential
      security. Before any local guards are cleared to begin work at an embassy, the LGP contract
      requires the security contractor to complete vetting requirements on every prospective guard and
      submit the results for review and approval by the regional security officer (RSO) or assistant
      regional security officer (ARSO), as the contracting officer’s representative (COR) for the LGP
      contract. The vetting requirements generally include a “police check covering criminal and/or
      subversive activities, a credit check, proof of successful previous employment with supervisor
      recommendations, and a personal residence check.” 1

             (U) In response to the increased role of the LGP, the Office of Inspector General (OIG)
      conducted this audit to determine whether security contractors had complied with LGP contract
      requirements for vetting the suitability of local guards at posts overseas 2 and whether RSOs had
      performed adequate oversight of the local guard vetting process.

              (SBU) OIG found that none of the six security contractors selected for review 3 fully
      performed all vetting requirements contained in the LGP contract. Inadequate oversight of the
      local guard vetting process places embassies and personnel at risk.

              (U) For example, security contractors did not always comply with LGP contract terms
      requiring the full vetting of the local guards prior to employment. Nor did the security
      contractors maintain the personnel files for local guards in accordance with LGP contract
      requirements; therefore, OIG could not verify that all vetting requirements had been fulfilled.

              (SBU) The lack of security contractor compliance with the vetting requirements for local
      guards may have occurred for various reasons. For example, the security contractors and the
      Department executed contracts that contained terms and conditions that often could not be met;
      local privacy laws prevented security contractors [Redacted] (b) (5), [Redacted] (b) (7)(F) from
      performing elements of the local guards' vetting that were requirements of the LGP contract; and
      other specific limitations, such as the lack of credit reporting services and the availability of
      official records, inherent to the posts audited in [Redacted] (b) (5), [Redacted] (b) (7)(F) also prevented
      security contractors from performing elements of the vetting that were requirements of the LGP
      contract. However, the Department did not modify the LGP contracts to reflect the privacy law
      limitations or to compensate for specific limitations, such as the lack of credit reporting services
      and the availability of official records. Without security contractors completing all vetting

      1
       (U) Section “H” of local guard contracts.
      2
       (U) The six embassies selected for this audit were [Redacted] (b) (5), [Redacted] (b) (7)(F)
                                                             See Appendix A for the complete scope and methodology
     for this audit.
[Redacted] (b) (5), [Redacted] (b) (7)(F)


                                                    1
                                       SENSITIVE BUT UNCLASSIFIED
                                                                                       SENSITIVE BUT UNCLASSIFIED

      requirements in the LGP contracts or the Department modifying the LGP contracts and providing
      alternative controls when limitations exist, the local guard vetting process could fail, resulting in
      increased security risks to embassies and personnel.

                          (SBU) In addition, three of the six security contractors—[Redacted] (b) (5), [Redacted] (b) (7)(F)
[Redacted] (b) (5), [Redacted] (b) (7)(F)
[Redacted] (b) (5), [Redacted] (b) (7)(F)                               —did not complete the vetting                                                                                     [Redacted] (b) (5), [Redacted] (b) (7)(F)

      process for local guards prior to placing them on duty at embassies. Specifically, at
          [Redacted] (b) (5), [Redacted] (b) (7)(F)
                                                                                                     and
      at             vetting requirements were not completed for all local guards during contract
      transition periods 5 between contractors until, in some instances, more than 2 years after the
      guards had been placed on duty. This occurred because the RSO permitted the security
      contractors to allow guards to begin work without completing extra vetting requirements
      prescribed by the RSO (not required by the LGP contract) 6 or by extending the time frame for
      completing the background investigations. However, controls were not put in place to ensure
      that all vetting requirements would be completed once the guards were placed on duty. As a
                                                                              [Redacted] (b) (5), [Redacted] (b) (7)(F)                       [Redacted] (b) (5), [Redacted] (b) (7)(F)
      result, 173 local guards at         and about 100 local guards at           were placed on duty
      before they had met all the vetting requirements. In addition, OIG found that 18 local guards
                                                      [Redacted] (b) (5), [Redacted] (b) (7)(F)

      placed on duty at            between October 1, 2010, and April 26, 2013, had not been fully
      vetted through the post’s security office. The practice of placing local guards on duty before
      fully completing background investigations can place post personnel and property at risk.
                                                                                                                                                [Redacted] (b) (5), [Redacted] (b) (7)(F)
               (U) Moreover, the RSOs at five of the six posts audited—
      [Redacted] (b) (5), [Redacted] (b) (7)(F)                           —did not adequately document
      their oversight of the local guard vetting process. Specifically, the RSOs frequently could not
      demonstrate that they had reviewed and approved the local guards employed to protect their  [Redacted] (b) (5), [Redacted] (b) (7)(F)
      posts. For example, at Embassy               the RSO could not produce an accurate listing of all
      the local guards who worked at the embassy, and the project manager for the security contractor
      received an embassy badge without undergoing a background investigation or RSO approval.
      Further, we found that no standard procedures were in place to guide the RSOs’ oversight
      process for vetting and approving local guards for duty. As a result, the process used by the
      RSOs to carry out oversight of the vetting process varied among the posts audited. OIG also
      determined that the typical rotation cycle 7 of RSOs underscores the importance of standard
      oversight procedures not only to promote uniform oversight of the LGP contracts but also to
      facilitate the transfer of duties between RSOs during their rotation.

             (SBU) Inadequate oversight of the local guard vetting process places embassies and
      personnel at [Redacted]
                    risk. (b)For     example, according to Department cables, an LGF member was assigned
                              (5), [Redacted] (b) (7)(F)
      to Embassy                                         for months before his criminal history and use of multiple false
      4
        (SBU) Terrorism threat levels were changed in October 2013; however, at the time of embassy selection and
      during the audit fieldwork,[Redacted] (b) (5), [Redacted] (b) (7)(F)
      5
        (U) The transition period typically occurs every 5 years, whether the LGP contract is awarded to the incumbent
      security contractor or a new security contractor. The security contactor is required to vet all new employees on the
      LGP contract, as well as the incumbent employees.
      6                                                                              [Redacted] (b) (5), [Redacted] (b) (7)(F)
        (U) At the time of the transition to the new security contractor, the RSO in                    had prescribed 14 vetting
      requirements. The number of RSO-prescribed checks has increased to 21.
      7
        (U) The tenure of an RSO at a particular post is generally 2–3 years. At the end of this period, the RSO is
      “rotated” or assigned to a new post.
                                                                                                    2
                                                                                       SENSITIVE BUT UNCLASSIFIED
                                                        SENSITIVE BUT UNCLASSIFIED

identities was discovered. [Redacted] (b) (5), [Redacted] (b) (6)
The RSO conducted an investigation [Redacted] (b) (5), [Redacted] (b) (6)
[Redacted] (b) (5), [Redacted] (b) (6) however, he did admit to having a criminal history and
using false identities. The results of the investigation exposed severe deficiencies in the security
contractor’s overall vetting process. Had adequate oversight of the security contractor’s vetting
process been performed prior to the allegation, the RSO would have identified the inaccuracies
of the background investigation and denied the employment of an unsuitable guard, preventing
his access to the embassy and its personnel.
                                                                                                  [Redacted] (b) (5), [Redacted] (b) (7)(F)

        (SBU) The audit team also determined that the security contractor
[Redacted] (b) (5), [Redacted] (b) (7)(F)   [Redacted] (b) (5), [Redacted] (b) (7)(F)
              at Embassy           had not been paying the local guards in accordance with the
LGP contract terms. Specifically, the security contractor had not paid the monthly $100
supplemental wages to the guards as required and for which the contractor billed the U.S.
Government. We estimated that the amount invoiced by the security contractor and unpaid to the
local guards from September 2010 through June 2013 could amount to as much as $1.48 million.
[Redacted] (b) (5), [Redacted] (b) (7)(F)
                      As a result of the Outline for Action, AQM modified the LGP contract to
clarify how the supplemental wages should be implemented. In addition, according post, audits
conducted by both the contractor and AQM identified, on average, that the security contractor
failed to pay 15–25 percent of the full supplemental wage for a total of $298,000 since 2010.

       (U) OIG made 15 recommendations intended to ensure compliance with the LGP contract
requirements and to rectify specific deficiencies found at the six posts audited. In addition, we
recommended that DS develop and issue guidance to promote uniform oversight of the LGP
contracts.

        (U) All six embassies selected for review provided comments to the draft report. Based
on the embassies’ responses (see Appendices D through I) to the draft report, of the six
recommendations directly addressed to the embassies, OIG considers 3 recommendations closed
and 3 recommendations resolved, pending further action.

       (U) OIG did not receive AQM’s and DS’s responses to the draft report within the allotted
timeframe; 8 therefore, the responses have not been included this report.

      (U) The posts’ responses and OIG’s replies to those responses are included after each
recommendation.

                                                                                 (U) Background
       (U) Increased security threats at posts worldwide underscore the importance of the LGP
and the proper vetting of LGF personnel hired to augment post security. There were at least 272

8
  (U) OIG received AQM’s and DS’s comments to the draft report while OIG was finalizing the report. AQM and
DS concurred with all recommendations, and OIG will follow up with AQM and DS during the compliance process
to ensure implementation of the recommendations.
                                                                     3
                                                        SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

significant attacks against U.S. diplomatic facilities and personnel between 1998 and 2012,
including the fatal attacks on U.S. personnel in Benghazi, Libya, in September 2012. 9 In the
case of the Benghazi attacks, the Department had contracted a British security company to
provide LGF protection. According to an October 2012 media report 10 on the Benghazi attacks,
the security contractor hired Libyan men, including some who later stated in interviews that they
had been hired after a casual recruiting and screening process and had received minimal training
to screen visitors and help patrol the U.S. mission in Benghazi. One guard who had been
recently fired and another guard on the company’s payroll were suspected of throwing a
homemade bomb into the U.S. compound 6 months before the attacks. In addition, according to
the United States Senate Select Committee on Intelligence, the Temporary Mission Facility in
Benghazi had been vandalized and attacked in the months prior to the September 2012 attacks by
some of the same guards who were there to protect it. 11

        (U) DS is responsible for providing security at overseas posts for all agencies under the
purview of the Chief of Mission. The LGP engages established security firms to contract LGF
personnel on behalf of the Department. Through this program, foreign nationals are employed to
guard access to the post and to provide building and residential security. In 2012, the total cost
for the LGP was approximately $556 million. As of March 18, 2013, there were 100 active LGP
contracts awarded either at post or by AQM, in Washington, DC.

(U) Award and Administration of Local Guard Program Contracts

       (U) Although LGP contracts were historically negotiated and awarded at each post using
a standardized format established by the Bureau of Administration, Office of the Procurement
Executive, in 2008, the Under Secretary for Management endorsed a change in the LGP
contracting process to centralize the award and administration of the contracts in Washington,
DC, under AQM. As part of these efforts, AQM established the Local Guard Branch dedicated
to awarding and administering LGP contracts.

        (U) AQM is the lead acquisition agent from pre-award to award of LGP contracts, with
individual contract specialists administering eight to 10 LGP contracts. The RSO is responsible
for implementing and managing the LGP at a particular post. The responsibilities of the RSO or
the ARSO include serving as the COR for the LGP contract, providing input to AQM regarding
post requirements, initiating purchase requests for contract modifications, monitoring
performance, and reviewing monthly invoices.

       (U) LGP contracts are awarded for a 1-year period plus 4 option years. Once an LGP
contract is awarded, the security contractor is given a transition period not to exceed 90 days.

9
  (U) Department of State, Bureau of Diplomatic Security, “Significant Attacks Against U.S. Diplomatic Facilities
and Personnel 1998-2012,” Revised July 2013.
10
   (U) Tabassum Zakaria, Susan Cornwell, and Hadeel al-Shalchi, “For Benghazi diplomatic security, U.S. relied on
small British firm,” Reuters, October 17, 2012, www.reuters.com/assets/print?aid=USBRE89G1TI20121018,
accessed March 20, 2013.
11
   (U) Senate Select Committee on Intelligence, United States Senate, “Review of the Terrorist Attacks on U.S.
Facilities in Benghazi, Libya, September 11–12, 2012,” January 15, 2014, p. 39 (citing “Classified Report of the
ARB,” December 18, 2012, Appendix 26).
                                               4
                                  SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED

During the transition period, the security contractor must complete the steps necessary to obtain
all required personnel; conduct training; and acquire all necessary equipment, licenses, permits, and
insurance. This transition period occurs with every LGP contract award (at least every 5 years).
Regardless of whether the contract is awarded to the incumbent security contractor or a new
security contractor, the contractor is required to vet all new and incumbent employees.

(U) The Vetting of Local Guard Force Personnel

        (U) LGP contracts provide the terms and conditions security contractors and RSOs or
ARSOs, as CORs, must follow when determining whether a person is suitable before offering
employment. 12 LGP contracts require the security contractor to conduct background
investigations on prospective LGF personnel. The LGP contract solicitation template lists the
terms and conditions for the approval and acceptance of security contractor employees.
Specifically, the contracts state:

        The background investigation must include a police check covering criminal
        and/or subversive activities, a credit check, proof of successful previous
        employment with supervisor recommendations, and a personal residence check.
        The records of all investigations must be submitted to the RSO or ARSO, who
        serve as the COR for the LGP contract, for approval before the guards are allowed
        to begin work.

        (U) Although stated as “requirements,” these terms and conditions can be modified by
AQM, anytime during the contract period, to take into account country-specific requirements or
limitations.

        (U) The Foreign Affairs Manual (FAM) assigns responsibility to the RSOs for
“conducting background checks of prospective guard personnel.” 13 In addition, the Foreign
Affairs Handbook (FAH) assigns LGP managerial responsibilities to the RSO, which include
establishing and maintaining LGP files. 14 These files should include the initial application,
background information, training records, examination test scores, and, when required, firearms
qualification scores for all security contractor guard personnel. In addition, the security
contractor is required to maintain local guard personnel files for each employee and must provide
the RSO with any updates or changes to the information contained in the nomination package.
The RSO must also maintain copies of the contract guard nomination packages throughout the
contract’s period of service. 15



12
   (U) Section “H” of local guard contracts.
13
   (U) 12 FAM 227.3-2, “Investigations for Local Guard Programs.” Specifically, the FAM states: “As a matter of
policy, RSOs are responsible for conducting background checks of prospective guard personnel. In some cases, the
RSO has tasked commercial contractors to conduct portions of the investigation. The RSO must in all cases be
satisfied with the effectiveness of the contractor investigation. RSOs themselves must complete local police checks
and must review files of appropriate agencies at post. The RSO must keep the results of these investigations for
subsequent inspection by DS supervisory personnel.”
14
   (U) 12-FAH-7 H-430, “Local Guard Program Managerial Responsibilities.”
15
   (U) “Local Guard Program Guidance,” Department Cable, 11 State 122839, December 12, 2011, Section 5.
                                                5
                                   SENSITIVE BUT UNCLASSIFIED
                                                                 SENSITIVE BUT UNCLASSIFIED

        (U) Although contractors perform the vetting and background checks for local guards, as
contracted, the RSO maintains responsibility to ensure that the guards are suitable before giving
final approval. As part of this oversight, the RSO’s office completes limited reviews and
background checks. These checks are performed, as discussed below, by either Foreign Service
National Investigators (FSNIs) who work in the post security office or by the LGF coordinator at
post. Department guidance specifically directs, however, that even though RSOs may task
commercial contractors to conduct portions of the investigation, the RSO “must in all cases be
satisfied with the effectiveness of the contractor investigation,” and “RSOs themselves must
complete local police checks.” 16

       (U) The lack of readily available services and documents common in developed countries
can inhibit the ability of those performing background investigations in developing countries.
                     [Redacted] (b) (5), [Redacted] (b) (7)(F)[Redacted] (b) (5), [Redacted] (b) (7)(F)

For example,              and             generally lack centralized digital police databases,
school records, and credit reporting services. Furthermore, persons in these countries often do
not have formal identification cards or birth certificates. Security contractors and post
background investigators must make adjustments to compensate for these limitations, such as
asking banks for letters of credit and visiting and interviewing local village leaders.

       (U) For LGP contracts awarded after 2010, security contractors must develop a
nomination package for submission to the COR for final approval (or rejection). 17 The
nomination package includes a nomination letter, an individual qualification checklist, and a
summary of all suitability investigative records. For LGP contracts awarded before 2010 that do
not require the more expansive nomination packages, the COR reviews the summary of
background investigations conducted by the security contractor and accepts or rejects the
applicant. All LGP contracts specify that the security contractor will not use any employee
under the contract without prior COR approval.

            (U) Local Guard Force Coordinator

        (U) The LGF coordinator is a member of the locally employed staff who works directly
for the RSO and provides daily oversight of the LGP. LGF coordinators are vetted by the RSO.
LGF coordinators may or may not be utilized at post. In those instances where posts utilize LGF
coordinators, they are involved in the initial hiring process and work with the security contractor
to ensure that prospective guards meet and maintain all requirements. At some posts that utilize
LGF coordinators, once the security contractor has submitted a prospective guard for work at the
embassy, the LGF coordinator oversees the embassy background investigations and submits the
final nomination package to the RSO.

            (U) Foreign Service National Investigator

        (U) The FSNI works in the security office and performs tasks to support the entire
security program abroad; this includes conducting background investigations assigned by the
RSO
16
     (U) 12 FAM 227.3-2, “Investigations for Local Guard Programs.”
17                                                                                          [Redacted] (b) (5), [Redacted] (b) (7)(F)
     (U) Three of the six LGP contracts reviewed for the audit required nomination packages

                                                                              6
                                                                 SENSITIVE BUT UNCLASSIFIED
                                         SENSITIVE BUT UNCLASSIFIED


                                                      (U) Objective

             (U) The objective of the audit was to determine whether security contractors had
      complied with LGP contract requirements for vetting the suitability of local guards at posts
      overseas and whether RSOs performed adequate oversight of the local guard vetting process.

                                                   (U) Audit Results

      (U) Finding A. Security Contractors Did Not Fully Comply With Contract
      Requirements for Vetting Local Guards at Overseas Posts
              (SBU) OIG found that none of the six security contractors audited 18fully performed all
      vetting requirements contained in the LGP contract. For example, security contractors did not
      always comply with LGP contract terms requiring the full vetting of the local guards prior to
      employment. Nor did the security contractors maintain the personnel files for local guards in
      accordance with LGP contract requirements; therefore, OIG could not verify that all vetting
      requirements had been fulfilled. The lack of security contractor compliance with the vetting
      requirements for local guards may have occurred for various reasons. For example, the security
      contractors and the Department executed contracts that contained terms and conditions that often
      could not be met; local privacy laws prevented security contractors[Redacted] (b) (5), [Redacted] (b) (7)(F)
                        from performing elements of the local guards' vetting that were requirements of
      the LGP contract; and other specific limitations, such as the lack of credit reporting services and
                                                                             [Redacted] (b) (5), [Redacted] (b) (7)(F)
      the availability of official records, inherent to the posts audited in
                    also prevented security contractors from performing elements of vetting that were
      requirements of the LGP contract. However, the Department did not modify the LGP contracts
      to reflect the privacy law limitations or to compensate for other limitations, such as the lack of
      credit reporting services and the availability of official records. Without the security contractor
      completing all vetting requirements in the LGP contract or the Department modifying the LGP
      contract and providing alternative controls when limitations exist, the local guard vetting process
      could fail, resulting in increased security risks to embassies and personnel.

              (U) The following 10 items were required by LGP contracts to fulfill the vetting process
      and were used to measure compliance with the contract terms: nomination letter, 19 individual
      qualification checklist, 20 police check, credit check, proof of employment, supervisor
      recommendations, educational requirements, personal residence check, physical health
      examination, and 80 hours of initial basic training.

[Redacted] (b) (5), [Redacted] (b) (7)(F)




      19
         (U) The nomination letter is submitted by the security contractor to formally nominate an applicant for the
      position of local guard. The letter contains the applicant’s name and the date the nomination was submitted.
      20
         (U) The individual qualification checklist is a document required for LGP contracts signed after 2010 and is to be
      completed by the security contractor. It is intended to provide an overview of the guard’s personnel file, containing
      all of the LGP contract requirements for local guard personnel, along with the date it was completed and signature of
      the official who approved it.
                                                      7
                                         SENSITIVE BUT UNCLASSIFIED
                                                 SENSITIVE BUT UNCLASSIFIED

                     (U) As shown in Table 1, the security contractors’ local guard personnel files selected for
             testing did not always contain documentation that the 10 vetting requirements were fulfilled,
             such as police or credit checks. In addition, local guard personnel files were often missing
             nomination letters, individual qualification checklists, personal residence checks, and training
             documentation, among other required documents. (See Table 3 in Appendix A, Scope and
             Methodology, for detailed information about the posts audited, including the universe and
             number of local guard personnel files sampled and tested at each post.)

             (SBU) Table 1. Percentage of Noncompliance With Local Guard Program Contract Vetting
[Redacted] (b) (5), [Redacted] (b) (7)(F)




             Contract Vetting
             Requirements
                                                    a                                  a               a
             Nomination Letter                   N/A             28%               N/A             N/A            17%               0%
             Individual Qualification               a                                  a               a
                                                 N/A             53%               N/A             N/A            25%               0%
             Checklist
                                                                                           b               b
             Police Check                        40%             14%              100%            100%             6%              0%
                                                                                      d                c
             Credit Check                        67%             44%               N/A            100%            28%              8%
                                                                                        c              c
             Proof of Employment                 48%             54%              100%            100%            36%             93%
             Supervisor                                                                    c               c
                                                 58%             87%              100%            100%            23%             99%
             Recommendations
                                                    d
             Educational Requirements            N/A             39%                0               0              9%             48%
                                                                                      d                c
             Residence Check                     58%             39%               N/A            100%            22%             7%
             Physical Health                                                               c               c
                                                 67%             13%              100%            100%            13%               1%
             Examination
             80 Hrs. Initial Basic
                                                 42%             99%                0%              0%            54%               9%
             Training
             a
               (U) This LGP contract was awarded before 2010 and did not contain this provision.
             b
               (U) Confidential check conducted by local police because of local privacy laws; however, this resulted in 100 percent
             noncompliance with LGP contract terms.
             c
               (U) Security contractors were prohibited from investigating these vetting elements because of country privacy laws; this
             resulted in 100 percent noncompliance with LGP contract terms.
             d
               (U) Not a term or condition of this LGP contract.
             (SBU) Source: OIG analysis of data collected during audit fieldwork.

                      (SBU) In addition, three of the six security contractors audited [Redacted] (b) (5),
                                                                                                      [Redacted] (b) (7)(F)
                                                   —did not complete the vetting process for local guards prior
                                                                       [Redacted] (b) (5), [Redacted] (b) (7)(F)
             to placing them on duty at the embassy. Specifically, at                                            vetting
             requirements were not completed for all local guards during contract transition periods 22 between
             contractors until, in some instances, more than 2 years after the guards had been placed on duty.

             21
                (SBU) Terrorism threat level derived from the Department’s Security Environment Threat List (SETL), as of
             October 2013. Terrorism threat levels were changed in October 2013; however, at the time of embassy selection
             and during the audit fieldwork, [Redacted] (b) (5), [Redacted] (b) (7)(F)
             22
                (U) The transition period typically occurs every 5 years, whether the LGP contract is awarded to the incumbent
             security contractor or a new security contractor. The security contactor is required to vet all new employees on the
             LPG contract, as well as the incumbent employees.
                                                              8
                                                 SENSITIVE BUT UNCLASSIFIED
                                                                SENSITIVE BUT UNCLASSIFIED

This occurred because the RSO permitted the security contractors to allow guards to begin work
without completing extra vetting requirements prescribed by the RSO (not required by the LGP
contract) 23 or by extending the time frame for completing the background investigations.
However, controls were not put in place to ensure that all vetting requirements were completed                 [Redacted] (b) (5), [Redacted] (b) (7)(F)

once the guards were placed on duty. As a result, 173 local guards at
               [Redacted] (b) (5), [Redacted] (b) (7)(F)
                                                                                                     and about 100 local
guards at                          were placed on duty before they had met all the vetting requirements. The
practice of placing local guards on duty before fully completing background investigations can
place post personnel and property at risk. (Additional information regarding incomplete vetting
    [Redacted] (b) (5), [Redacted] (b) (7)(F)
by                                            unrelated to a transition period is included in the Other Matters section
of this report.)

[Redacted] (b) (5), [Redacted] (b) (7)(F)

        (U) OIG found that many of the local guard personnel files were missing required
information, such as police and credit checks, and many of the police and credit checks that had
been completed were dated April and May 2013, less than 1 month prior to the audit team’s
arrival at post. The LGP contract required these checks to be completed prior to the offer of
employment and placing the guards on duty. Specifically, out of a sample of 48 files examined,
we found that 19 (40 percent) did not have police checks. For the 29 files that did have police
checks, 15 (52 percent) were completed in April 2013. In addition, credit checks were missing
from 32 (67 percent) of the 48 files examined. For the 16 files that did have credit checks, 6 (38
percent) of these credit checks were completed in May 2013, rather than prior to hiring. Proof of
employment was also missing from 23 (48 percent) of the files and supervisor recommendations
were missing from 28 (58 percent) of the 48 files examined. Personal residence checks were                        [Redacted] (b) (5), [Redacted] (b) (7)(F)

also missing from 28 (58 percent) of the files examined. Additionally,             did not retain
the local guard personnel files for 11 guards selected for review who were no longer employed at
the embassy—a requirement of the LGP contract. Finally, at the time of our fieldwork in May
        [Redacted] (b) (5), [Redacted] (b) (7)(F)

2013,             had not submitted invoices to the embassy for the previous 5 months, even
though the LGP contract stipulates the submission of monthly invoices, including supporting
documentation such as timesheets.
                                                                                                       [Redacted] (b) (5), [Redacted] (b) (7)(F)

        (U) According to the ARSO at post, he arrived to Embassy               just 3 weeks prior to        [Redacted] (b) (5), [Redacted] (b) (7)(F)
audit fieldwork. Upon his arrival, the ARSO reviewed 30 percent of                   local guard
personnel files and discovered that only one file contained all the required information. The
ARSO also discovered that items such as addresses and employment verification were missing
                                                                                    [Redacted] (b) (5), [Redacted](b) (7)(F)

from the local guard personnel files. The ARSO stated that              appeared to be unaware of
some of the requirements for maintaining the local guard personnel files. The ARSO therefore
                    [Redacted] (b) (5), [Redacted] (b) (7)(F)

instructed             project manager to update and complete the local guard personnel files, as
required by the LGP contract.




23
  (U) At the[Redacted]
               time(b) of    the transition to the new security contractor, there were 14 vetting requirements prescribed by
                       (5),[Redacted] (b) (7)(F)
the RSO in                   The number of RSO prescribed checks has increased to 21.
                                                                             9
                                                                SENSITIVE BUT UNCLASSIFIED
                                                                  SENSITIVE BUT UNCLASSIFIED

                                                                                                                                                                          [Redacted] (b) (5), [Redacted] (b) (7)(F)                  [Redacted] (b) (5), [Redacted](b) (7)(F)

         (U) Recommendation 1. OIG recommends that Embassy                      ensure that
                           fulfills all contract requirements pertaining to background
         investigations and maintains the local guard personnel files in accordance with contract
         requirements.
                                           [Redacted] (b) (5), [Redacted] (b) (7)(F)                                                 [Redacted] (b) (5), [Redacted] (b) (7)(F)

         (U) Embassy              Response: Embassy                 agreed with the recommendation,[Redacted] (b) (5), [Redacted ] (b) (7)(F)

         stating that the “RSO encouraged               to create a checklist which fulfills all
         contract requirements pertaining to BIs [background investigations]” and that the “ARSO
         has verified the existence of this check list and has ensured that this checklist is included
         in each employee nomination package.” Further, Embassy officials stated that FSNIs
         have created a check list and spreadsheet to meet documentation requirements.

         (U) OIG Reply: OIG considers the recommendation closed. OIG reviewed and       [Redacted] (b) (5), [Redacted] (b) (7)(F)

         accepted documentation used           and the Embassy to track and monitor
         contract requirements.

[Redacted] (b) (5), [Redacted] (b) (7)(F)

        (U) Of the 87 local guard personnel files selected for review, OIG found that 46 (53
percent) were missing individual qualification checklists, 38 (44 percent) were missing credit
checks, 47 (54 percent) were missing proof of employment, 76 (87 percent) did not contain
supervisor recommendations, and personal residence checks were missing from 34 (39 percent)
                                                       [Redacted] (b) (5), [Redacted] (b) (7)(F)

of the 87 files examined.                  did not adhere to all of the LGP contract requirements
                                                                                  [Redacted] (b) (5), [Redacted] (b) (7)(F)
                       24
because of limitations specific to              that inhibited complete compliance with the                                                                      [Redacted] (b) (5), [Redacted] (b) (7)(F)
                                                                                                                                                                                                        [Redacted] (b) (5), [Redacted] (b) (7)(F)
contract terms. For example, credit checks are not available in                 so
obtained letters from local banks to endorse the local guards’ credit standings. However, the                                 [Redacted] (b) (5), [Redacted] (b) (7)(F)

Department did not modify the LGP contract with                       to reflect the compensating
                                                   [Redacted] (b) (5), [Redacted] (b) (7)(F)

control implemented by                   and endorsed by the RSO. In addition, 86 of 87 of the
files examined were missing evidence of the required 80 hours of initial basic training. The RSO
explained that training records were kept in separate files and that they were in the process of
merging all of the training files into each local guard personnel file, as recommended in a recent
DS program management review.

         (U) Challenges Associated With Security Contract Transition
               [Redacted] (b) (5), [Redacted] (b) (7)(F)
                                                                                                                                                                                  [Redacted] (b) (5), [Redacted] (b) (7)(F)
         (U)              became the security contractor at Embassy
                 According to the LGF coordinator, the RSO agreed to accept nomination
                         [Redacted] (b) (5), [Redacted] (b) (7)(F)

packages from                without the required police checks for about 100 local guards who
                           [Redacted] (b) (5), [Redacted] (b) (7)(F)

had worked for      with the stipulation that the police checks would be completed within a
year. However, the required police checks were not completed until more than 2 years later.
According to the LGF coordinator, there were no procedures set in place to remind the RSO to
                                                       [Redacted] (b) (5), [Redacted] (b) (7)(F)

follow up and ensure that               completed the police checks. As a result, about 100

                                                            [Redacted] (b) (5), [Redacted] (b) (7)(F)
24
  (U) The limitations specific to            regarding the vetting of local guards include the lack of credit reporting
services, electronic police records, and the availability of school records, birth certificates, and government-issued
identification cards.
                                                                              10
                                                                  SENSITIVE BUT UNCLASSIFIED
                                                                               SENSITIVE BUT UNCLASSIFIED

                                                                                                                         [Redacted] (b) (5), [Redacted](b) (7)(F)

incumbent guards were placed on duty at Embassy            without having the police checks
completed for the incumbent guards, as required by the LGP contract terms.
                                                                                                                                                                    [Redacted] (b) (5), [Redacted] (b) (7)(F)

                     (U) Recommendation 2. OIG recommends that Embassy                                     ensure that
                     [Redacted] (b) (5), [Redacted] (b) (7)(F)
                                                               fulfills all contract requirements pertaining to background
                     investigations and maintains the local guard personnel files in accordance with contract
                     requirements.
                                                         [Redacted] (b) (5), [Redacted] (b) (7)(F)                              [Redacted] (b) (5), [Redacted] (b) (7)(F)

                     (U) Embassy             Response: Embassy                agreed with the
                     recommendation, stating that “post has incorporated strict controls to account for
                     contractual requirements pertaining to investigations and guard files” and that “files are
                     reviewed regularly.”

                     (U) OIG Reply: OIG considers the recommendation resolved. The recommendation can                                                                                                           [Redacted] (b) (5), [Redacted] (b) (7)(F)

                     be closed when OIG reviews and accepts documentation showing Embassy
                     incorporated controls to account for contractual requirements pertaining to investigations
                     and guard files, such as checklists or standard operating procedures.

                     (U) Recommendation 3. OIG recommends that the Bureau of Administration, Office of
                     Logistics Management, Office of Acquisitions Management, in coordination with
                                            [Redacted] (b) (5), [Redacted] (b) (7)(F)

                     Embassy              modify the Local Guard Program contract to compensate for the
                                                                             [Redacted] (b) (5), [Redacted] (b) (7)(F)
                     limitation inherent to          and implement an acceptable alternative to ensure
                     background investigations are completed in accordance with contract requirements.

                     (U) AQM Response: AQM did not provide a response to the draft report within the
                     allotted timeframe.
                                                         [Redacted] (b) (5), [Redacted] (b) (7)(F)                              [Redacted] (b) (5), [Redacted] (b) (7)(F)

                     (U) Embassy             Response: Embassy            agreed with the
                     recommendation, stating that “post will work with AQM to modify the contract to
                     compensate for inherent local limitations.”

                     (U) OIG Reply: OIG considers this recommendation unresolved and will follow up with
                     AQM during the compliance process to ensure implementation of the recommendation.
                                                                                                                                 [Redacted] (b) (5), [Redacted] (b) (7)(F)

                     (U) Supplemental Wages Were Not Paid by
                                                                                                                                                             [Redacted] (b) (5), [Redacted] (b) (7)(F)

        (SBU) Prompted by a request from the RSO at Embassy                 during fieldwork, OIG
reviewed the LGP contract terms concerning a supplemental wage provision and discovered
[Redacted] (b) (5), [Redacted] (b) (7)(F)

               was not paying the monthly $100 supplemental wages as required. This occurred
because the mechanism for implementing the supplemental wage allowance was not fully
comprehended or agreed upon by the then AQM contracting officer, security contractor, and
                                                                 [Redacted] (b) (5), [Redacted] (b) (7)(F)

RSO posted at Embassy                during the contact’s 2010 implementation. Upon entering into
the contract’s first option year in 2011, the new RSO brought this matter to the attention of AQM
and submitted a request for assistance in investigating the discrepancy and developing a remedy
to the AQM contracting officer and others in AQM. Although the RSO brought this matter to
the attention of AQM, no action was taken to address the issue, and the contracting officer did
                                                                                           11
                                                                               SENSITIVE BUT UNCLASSIFIED
                                                              SENSITIVE BUT UNCLASSIFIED

       not adequately inform the RSO about validation procedures designed to help ensure compliance
       with the supplemental wage allowance provision. As a result, the Department paid for direct
       costs invoiced by the contractor that were not provided to the local guards. We estimated that
       the amount invoiced and not paid to the local guards from September 2010 through June 2013                                                                    [Redacted] (b) (5), [Redacted] (b) (7)(F)

       could amount to $1.48 million. [Redacted] (b) (5), [Redacted] (b) (7)(F)         to AQM that
       addressed this issue (See Appendix B). As a result of the Outline for Action, AQM modified the
       LGP contract to clarify how the supplemental wages should be implemented. In addition,
       according to post, audits by both the contractor and AQM identified that, on average, the security
       contractor failed to pay 15–25 percent of the full supplemental wage for a total of $298,000 since
       2010. AQM has not finished its analysis of actual monies owed.

       [Redacted] (b) (5), [Redacted] (b) (7)(F)
               (U) OIG found the vetting requirements outlined in the LGP contract were not fully                                                                                   [Redacted] (b) (5),[Redacted] (b) (7)(F)

       completed in accordance with the contract terms because of privacy laws in              The LGP           [Redacted] (b) (5), [Redacted](b) (7)(F)

       contract executed between the Department and
                            [Redacted] (b) (5), [Redacted] (b) (7)(F)
                                                                     contained vetting requirements to be
       performed by the                such as police checks, proof of employment, supervisor
       recommendations, and physical health examinations. However, according to the security                              [Redacted] (b) (5), [Redacted](b) (7)(F)

       contractor and RSO, local privacy laws prevented                  from performing these vetting
                                          [Redacted] (b) (5), [Redacted] (b) (7)(F)                                                                                                                         [Redacted] (b) (5), [Redacted] (b) (7)(F)

       requirements. Instead,               relied upon the Administrative Department of the
       Police to complete confidential background investigations on the local guard candidates. If the
       background investigation was deemed successful, the Police issued the local guard candidate a
                                                                                    [Redacted] (b) (5), [Redacted] (b) (7)(F)
       guard license and a weapon license.                then filed this information in the local guard
       personnel files as proof of the background investigation. However, the Department did not
       modify the LGP contract to approve the implementation of this compensating control. Without
       modifying the LGP contract to reflect local conditions and limitations, the Department cannot
       hold the security contractor accountable for adhering to all the vetting requirements contained in
       the contract.

               (U) Recommendation 4. OIG recommends that the Bureau of Administration, Office of
               Logistics Management, Office of Acquisitions Management, in coordination with
                         [Redacted] (b) (5), [Redacted] (b) (7)(F)
               Embassy         , modify the Local Guard Program contract to compensate for the privacy
                                                                           [Redacted] (b) (5), [Redacted] (b) (7)(F)
               law limitations inherent to      and implement an acceptable alternative to ensure
               background investigations are completed in accordance with contract requirements.

               (U) AQM Response: AQM did not provide a response to the draft report within the
               allotted timeframe.
                                        [Redacted] (b) (5), [Redacted] (b) (7)(F)                                        [Redacted] (b) (5), [Redacted] (b) (7)(F)
               (U) Embassy           Response: Embassy           responded to the recommendation,
               stating that “the Office of Overseas Protective Operations (OPO) in conjunction with the
               Regional Security Office agrees to modify the contract accordingly” and that “OPO
               assembled a working group to put forth recommendations to rectify vetting process
               shortfalls.”

[Redacted] (b) (5), [Redacted] (b) (7)(F)


                                                                          12
                                                              SENSITIVE BUT UNCLASSIFIED
                                                                         SENSITIVE BUT UNCLASSIFIED

                 (U) OIG Reply: OIG considers the recommendation unresolved and will follow up with
                 AQM during the compliance process to ensure implementation of the recommendation.

[Redacted] (b) (5), [Redacted] (b) (7)(F)

                                                                                                                                               [Redacted] (b) (5), [Redacted] (b) (7)(F)   [Redacted] (b) (5), [Redacted] (b) (7)(F)

        (U) Similar to the limitations found at Embassy           privacy laws in          according                  [Redacted] (b) (5), [Redacted] (b) (7)(F)
to the security contractor and RSO, prevented          from performing police and credit checks;
proof of employment, supervisor recommendation, and personal residence checks; and physical
health examinations, which were vetting requirements outlined in the LGP contract executed
                                                                        [Redacted] (b) (5),[Redacted] (b) (7)(F)    [Redacted] (b) (5), [Redacted] (b) (7)(F)
between the Department and             Instead,       relied on the National Police to conduct
confidential background investigations on local guard candidates. If the background
investigation was deemed successful, the Police issued the local guard candidate a guard license
                                                      [Redacted] (b) (5), [Redacted] (b) (7)(F)
and a weapon license.          then filed this information in the local guard personnel files as
proof of the background investigation. However, the Department did not modify the LGP
contract to approve the implementation of this compensating control. Without modifying the
LGP contract to reflect local conditions and limitations, the Department cannot hold the security
contractor accountable for adhering to all the vetting requirements contained in the contract.

                 (U) Recommendation 5. OIG recommends that the Bureau of Administration, Office of
                 Logistics Management, Office of Acquisitions Management, in coordination with
                                      [Redacted] (b) (5), [Redacted] (b) (7)(F)
                 Embassy           modify the Local Guard Program contract to compensate for the            [Redacted] (b) (5), [Redacted] (b) (7)(F)
                 privacy law limitations inherent to      and implement an acceptable alternative to
                 ensure background investigations are completed in accordance with contract
                 requirements.

                 (U) AQM Response: AQM did not provide a response to the draft report within the
                 allotted timeframe.
                                                 [Redacted] (b) (5), [Redacted] (b) (7)(F)                                             [Redacted] (b) (5), [Redacted] (b) (7)(F)
                 (U) Embassy              Response: Embassy               responded to the recommendation,
                 stating that “post is currently in the process of soliciting a new guard contract” and that
                 “companies must submit their bids by April 16, 2014.” Embassy officials further stated
                 that a contract modification would be issued after the contract award in order to avoid
                 delays in the contract process.

                 (U) OIG Reply: OIG considers the recommendation unresolved and will follow up with
                 AQM during the compliance process to ensure implementation of the recommendation.
[Redacted] (b) (5), [Redacted] (b) (7)(F)




        (U) OIG found that required documentation was missing from the 69 local guard
personnel files sampled. The most notable example is that 37 (54 percent) local guard personnel
files were missing proof of the required hours of initial basic training.




                                                                                     13
                                                                         SENSITIVE BUT UNCLASSIFIED
                                                          SENSITIVE BUT UNCLASSIFIED


         (U) Challenges Associated With Security Contract Transition
                                                                                                                                                                                                                                [Redacted] (b) (5), [Redacted] (b) (7)(F)
           (U) Additionally, OIG found that, during the security contractor transition from
[Redacted] (b) (5), [Redacted] (b) (7)(F)
                                          not all of the vetting requirements were completed before local
guards were placed on duty. According to AQM officials, this was largely due to challenges
encountered during the transition of the LGP contract. Specifically, to expedite the transition                                                                    [Redacted] (b) (5), [Redacted] (b) (7)(F)                            [Redacted] (b) (5), [Redacted] (b) (7)(F)

and avoid a bridge contract with the incumbent security contractor                              AQM and
agreed to complete the transition in 56 days rather than 90 days. The new LGP contract also
contained additional requirements for vetting the local guards that were not required in the
previous LGP contract. The additional requirements included specialized work experience,
English language requirements, and a high school diploma. However, because of the reduced[Redacted] (b)(5), [Redacted] (b) (7)(F)

transition time period, the RSO allowed                       to reduce the number of vetting elements
prescribed by the RSO that were separate from the LGP contract requirements with the
                   [Redacted] (b) (5), [Redacted] (b) (7)(F)
stipulation that               would complete the other vetting requirements within 1 year. As a result of
                                                                                                        [Redacted] (b) (5), [Redacted] (b) (7)(F)
the informal agreement between the RSO and                           173 local guards were placed on duty before
all vetting requirements were completed.
                                                                                                                                                                    [Redacted] (b) (5), [Redacted] (b) (7)(F)              [Redacted] (b) (5), [Redacted] (b) (7)(F)
         (U) Recommendation 6. OIG recommends that Embassy                   ensure that
         fulfills all contract requirements pertaining to background investigations and maintains
         the local guard personnel files in accordance with contract requirements.
                                    [Redacted] (b) (5), [Redacted] (b) (7)(F)                                           [Redacted] (b) (5),[Redacted] (b) (7)(F)

         (U) Embassy           Response: Embassy            responded to the recommendation,
                                                         [Redacted] (b) (5), [Redacted] (b) (7)(F)
         stating that “the RSO       created a comprehensive file management review system to
         ensure 100 [percent] compliance” with contract requirements.

         (U) OIG Reply: OIG considers the recommendation resolved. The recommendation can                                                                                                                                               [Redacted] (b) (5), [Redacted] (b) (7)(F)

         be closed when OIG reviews and accepts documentation showing that Embassy
         created a comprehensive file management review system to ensure 100% compliance
         with contract requirements.

[Redacted] (b) (5), [Redacted] (b) (7)(F)
                                                                                                                                                                     [Redacted] (b) (5), [Redacted] (b) (7)(F)

        (U) Although all the sampled local guard personnel files at                contained                                                                                           [Redacted] (b) (5), [Redacted] (b) (7)(F)
nomination letters, individual qualification checklists, and police checks,          did not adhere                                                                                                                        [Redacted] (b) (5), [Redacted] (b) (7)(F)
                                                                            26
to some of the LGP contract vetting requirements because of limitations specific to                             [Redacted] (b) (5), [Redacted] (b) (7)(F)                      [Redacted] (b) (5), [Redacted] (b) (7)(F)

For example, credit checks 27 are not available in                Instead,        placed a notation
on the individual qualification checklist in lieu of a credit check to indicate the guard’s credit
was in good standing. According to the LGF coordinator, before financial institutions provide
credit to an individual, they require a warranty statement from the employer. All complaints for                                                                        [Redacted] (b) (5),[Redacted] (b) (7)(F)

failure of reimbursement are addressed to the employer. Therefore,              would be aware if the



                                                     [Redacted] (b) (5), [Redacted] (b) (7)(F)
26
   (U) The limitations specific to             regarding the vetting of local guards include the lack of credit reporting
services and lack of availability of school records, birth certificates, and government-issued identification cards.
27
   (U) OIG accepted the security contractor’s dated notation on the individual qualification checklist as evidence that
a credit check had been conducted.
                                                                      14
                                                          SENSITIVE BUT UNCLASSIFIED
                                                                              SENSITIVE BUT UNCLASSIFIED

local guard applicants had any financial issues. 28 However, 6 (8 percent) of the 75 files
examined did not contain a notation on the individual qualification checklists for credit checks.

        (U) In addition, the records indicating compliance with the education requirements were
missing in 36 (48 percent) of the files examined. The security contractor substituted a French
language test as proof of education because school records were not always available.                                      [Redacted] (b) (5), [Redacted] (b) (7)(F)

According to the LGF coordinator, people in              generally cannot converse in French unless
they have completed primary school; therefore, the contractor considers the education
requirement for local guards to be fulfilled when local guard candidates pass a proficiency exam
for French. However, we found no documentation in the files that demonstrated an exam was
conducted. Proof of previous employment was missing in 70 files (93 percent), and 74 files (99                                                                          [Redacted] (b) (5), [Redacted] (b) (7)(F)
percent) were missing the supervisor recommendations. The               project manager explained                                                            [Redacted] (b) (5), [Redacted] (b) (7)(F)
that before being nominated as a local guard for Embassy
     [Redacted] (b) (5), [Redacted] (b) (7)(F)
                                                                         , the guard must first work
for        as a security guard at local businesses for at least 1 year. Therefore, the 3-year prior                             [Redacted] (b) (5),[Redacted] (b) (7)(F)

employment requirement was fulfilled through             but was not documented in the nomination
package. However, the Department did not modify the LGP contract to approve the
implementation of these compensating controls. Without modifying the LGP contract to reflect
local conditions and limitations, the Department cannot hold the security contractor accountable
for adhering to all the vetting requirements contained in the contract.

                (U) Recommendation 7. OIG recommends that the Bureau of Administration, Office of
                Logistics Management, Office of Acquisitions Management, in coordination with
                                           [Redacted] (b) (5), [Redacted] (b) (7)(F)
                Embassy                 modify the Local Guard Program contract to compensate for the
                                                                               [Redacted] (b) (5), [Redacted] (b) (7)(F)
                limitations inherent to             and implement an acceptable alternative to ensure
                background investigations are completed in accordance with contract requirements.

                (U) AQM Response: AQM did not provide a response to the draft report within the
                allotted timeframe.
                                                        [Redacted] (b) (5), [Redacted] (b) (7)(F)                                                          [Redacted] (b) (5), [Redacted](b) (7)(F)

                (U) Embassy                 Response: Embassy                 responded to the
                recommendation, stating that post is working with AQM to “modify the current contract
                and/or to create standards for alternative documentation that will be outlined in the
                solicitation for the 2015 contract.”

                (U) OIG Reply: OIG considers the recommendation unresolved and will follow up with
                AQM during the compliance process to ensure implementation of the recommendation.

(U) Addressing Challenges Associated With Security Contract Transition

        (U) The LGP contract transition period typically occurs every 5 years, at which point the
security contactor is required to vet all new and incumbent employees on the contract regardless
of whether the contract is awarded to the incumbent security contractor or a new security
contractor. According to the LGP contracts sampled for this audit, the transition period shall not

                                                                                                                                                                             [Redacted] (b) (5), [Redacted] (b) (7)(F)
28
  (U) 100 percent of the local guard applicants are previously employed by                                                                                                                    and utilized at commercial
contract locations for at least 1 year prior to employment at the embassy.
                                                                                          15
                                                                              SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED

exceed 90 calendar days, and the security contractor shall complete the steps necessary to obtain
all required personnel, conduct training, and acquire all necessary equipment, licenses, permits,
and insurance. At or before the end of the 90-day transition period, the security contractor shall
provide the contracting officer acceptable evidence that all required actions have been
successfully completed.

        (U) Three of the six posts audited [Redacted] (b) (5), [Redacted] (b) (7)(F) recently
transitioned to a new security contractor. As previously indicated, the security contractors for
                       [Redacted] (b) (5), [Redacted] (b) (7)(F)
two of the three posts                                           did not complete the full vetting of the local guards
before placing guards on duty. This occurred because the RSOs made informal agreements with
the security contractors allowing guards to begin work without completing extra vetting
requirements prescribed by the RSO (not required by the LGP contract) or by extending the time
frame for completing the vetting requirements. However, the LGP contracts were not modified
to reflect these changes, and there is no evidence that controls were put in place to ensure all
vetting requirements were completed within the agreed-upon time frames. This transition period
between LGP contracts is a critical point in the vetting process during which steps in the local
guard vetting process must be performed in a timely manner. The transition period typically
occurs every 5 years, and uniform guidance to instruct the RSO would be beneficial in ensuring
that no steps are missed.

        (U) To prevent security contractor noncompliance with contract terms for local guard
vetting because of local laws and conditions at posts and to mitigate the vulnerabilities associated
with local guard contract transition periods, we make the following recommendations:

         (U) Recommendation 8. OIG recommends that the Bureau of Administration, Office of
         Logistics Management, Office of Acquisitions Management, in coordination with the
         Bureau of Diplomatic Security, ensure that local privacy laws and practical limitations on
         vetting are considered in Local Guard Program contracts and alternative guard vetting
         procedures are adopted and incorporated into contracts when necessary.

         (U) AQM Response: AQM did not provide a response to the draft report within the
         allotted timeframe.

         (U) OIG Reply: OIG considers the recommendation unresolved and will follow up with
         AQM during the compliance process to ensure implementation of the recommendation.

          (U) Recommendation 9. OIG recommends that the Bureau of Diplomatic Security
         develop and issue guidance and training that prepares regional security officers for the
         periodic transition of Local Guard Program contracts, with a focus on planning for the
         transition and ensuring that local guards are vetted prior to placing them on duty.

         (U) DS Response: DS did not provide a response to the draft report within the allotted
         timeframe.

         (U) OIG Reply: OIG considers the recommendation unresolved and will follow up with
         DS during the compliance process to ensure implementation of the recommendation.
                                               16
                                   SENSITIVE BUT UNCLASSIFIED
                                                                         SENSITIVE BUT UNCLASSIFIED


(U) Finding B. Regional Security Officers Did Not Always Document
Oversight, and Vetting and Approval Processes Varied at Each Post Audited
        (U) The RSOs at five of six of the posts audited—[Redacted] (b) (5), [Redacted] (b) (7)(F)
                                                        —did not adequately document oversight
                                                                   [Redacted] (b) (5), [Redacted] (b) (7)(F)
of the local guard vetting process. Specifically, only the RSO at                                            had
documented oversight of the local guard vetting process in accordance with Department
requirements. The other five RSOs could not demonstrate that they had reviewed and approved                             [Redacted] (b) (5), [Redacted] (b) (7)(F)
the local guards employed to protect their posts. For example, at                       the RSO could not
produce an accurate listing of all the local guards who worked at the embassy, and a local guard
project manager received an embassy badge without undergoing a background investigation or
RSO approval. Further, we found that there were no standard procedures in place to guide the
RSOs’ oversight process for vetting and approving local guards for duty. As a result, the process
used by the RSOs to carryout oversight of the vetting process varied among the posts audited.
OIG also determined that the typical rotation cycle of RSOs 29 underscores the importance of
standard oversight procedures not only to promote uniform oversight of the LGP contracts but
also to facilitate the transfer of duties between RSOs during their rotation.
                                                                            [Redacted] (b) (5), [Redacted] (b) (7)(F)
          (SBU) Although Embassy                                 was not reviewed during this audit, a
November 2011 incident cited in Department cables demonstrates how inadequate oversight of
the local guard vetting process may allow individuals with questionable backgrounds and                                                                                [Redacted] (b) (5), [Redacted] (b) (7)(F)

motives to obtain access to the embassy and its personnel. A local guard hired by
[Redacted] (b) (5), [Redacted] (b) (7)(F)
                                          worked at the Embassy for multiple months before his criminal
history and past use of multiple false identities was discovered. The RSO conducted an
investigation [Redacted] (b) (5), [Redacted] (b) (6)
During the investigation, the guard denied [Redacted] (b) (5), [Redacted] (b) (6) however, he admitted to
having a criminal history, which included two arrests and three cases of employing false
identities to gain employment with local security contractors. Post also reviewed the local
                      [Redacted] (b) (5), [Redacted] (b) (7)(F)
guard’s            personnel file, which revealed “an invalid current address, no explanation for travel
                             [Redacted] (b) (5), [Redacted] (b) (7)(F)
outside of                 incomplete details on previous work experience, false statements on having
used other names, and criminal history.” Furthermore, the personnel file contained no local
police background check. As a result of this investigation, the RSO evaluated at least 595                                                                      [Redacted] (b) (5), [Redacted] (b) (7)(F)
employee nomination packages and training records and found that not a single
Criminal Investigation Check was initiated by [Redacted] (b) (5), [Redacted] (b) (7)(F)
                , which was responsible for the administration, recruitment, vetting, and training of
[Redacted] (b) (5), [Redacted] (b) (7)(F)
                 LGF. Moreover, investigations uncovered additional cases of guards using false
documentation to obtain employment. This investigation and review exposed severe deficiencies
in the security contractor’s vetting process. Had adequate oversight been performed prior to the
allegation, the RSO would have identified that the security contractor did not honor its
contractual agreement to complete employee background investigations and would have denied
the guard applications preventing access to the embassy by unsuitable persons.



29
  (U) The tenure of an RSO at a particular post is generally 2–3 years. At the end of this period, the RSO is
“rotated” or assigned to a new post.
                                                                                     17
                                                                         SENSITIVE BUT UNCLASSIFIED
                                                                     SENSITIVE BUT UNCLASSIFIED

        (U) The FAM requires the RSO to conduct a “full-field background investigation” of
local guards or to review investigations conducted by contractors on their employees, and to
evaluate all information developed as a basis for the issuance for denial of security certification
for employment. 30 The FAH states that the “RSO will maintain various files to support his or
her responsibilities,” including background information on contract personnel. 31

(U) Inadequate Documentation for the Oversight of the Local Guard Vetting Process

        (U) We found that documentation of local guard approval was inconsistent among the [Redacted] (b) (5), [Redacted] (b) (7)(F)
posts audited. For example, Embassy                  was the only post to have a signed and dated
security validation form indicating that the RSO had approved the guard for duty in all 75 of the
local guard personnel files examined. The local guard personnel files maintained by the RSO at
          [Redacted] (b) (5), [Redacted] (b) (7)(F)
Embassy                also clearly indicated when the nomination packages were received and
approved or disapproved. The form used to indicate approval could be utilized by other posts as
part of a standardization process to ensure that all posts have consistent approval documentation                                                        [Redacted] (b) (5), [Redacted] (b) (7)(F)
(See Appendix C for the security validation form used by Embassy                   .
                                                      [Redacted] (b) (5), [Redacted] (b) (7)(F)
         (U) At Embassy           the RSO signed an action memorandum approving the guards;
however, 3 of the 48 local guard personnel files reviewed did not contain this signed
                                    [Redacted] (b) (5), [Redacted] (b) (7)(F)
memorandum. In             while the local guard personnel files did not contain a formal approval
letter, the embassy badge approval form signed by the RSO served as evidence that the local
guard had been approved for duty. However, more than half of the local guard personnel files
examined did not have a badge approval form.
                                 [Redacted] (b) (5), [Redacted] (b) (7)(F)
        (SBU) In            because local guards were not issued embassy badges, and the local
guard personnel files did not contain a formal approval document signed by the RSO that
indicated when a guard was approved for duty, we could not verify the date of approval for 85
(98 percent) of 87 files sampled. Without evidence of approval documentation from the RSO
office, either the RSO’s approval of the nomination packages or approval for the issuance of an
embassy badge, it was not possible to determine when the local guards were placed on duty at                 [Redacted] (b) (5), [Redacted] (b) (7)(F)
the embassy. During fieldwork at Embassy               we discussed the lack of guard vetting
documentation with the RSO, and he recognized that guidance to document oversight of the LGP
contract would be helpful.
                                                      [Redacted] (b) (5), [Redacted] (b) (7)(F)
        (U) At Embassy          the RSO’s oversight of the vetting process and approval could
not be verified for 22 (34 percent) of the 65 local guard personnel files examined. This occurred
because the guards were no longer employed, and the LGF coordinator did not maintain former
local guard personnel files. The remaining local guard personnel files contained signed security                                                                              [Redacted] (b) (5), [Redacted] (b) (7)(F)
certifications indicating when the ARSO approved the guard. At Embassy               the RSO’s
oversight of the vetting process and approval could not be verified for 3 (11 percent) of the 28
local guard personnel files examined because these files, which were for guards no longer
employed at the embassy, did not contain a document with the RSO’s signature as proof of
approval.
30
   (U) 12 FAM 422.4 (d)(17,18), “Post Security Management.” See also 12 FAM 227.3-2, “Investigations for Local
Guard Programs.”
31
   (U) 12 FAH-7 H-438, “LGP Records and Files.”
                                                                                 18
                                                                     SENSITIVE BUT UNCLASSIFIED
                                                             SENSITIVE BUT UNCLASSIFIED


(U) No Standard Procedures To Guide Oversight of the Local Guard Vetting Process

        (U) We found that background investigations varied greatly among the six posts audited.
                                                    [Redacted] (b) (5), [Redacted] (b) (7)(F)    [Redacted] (b) (5), [Redacted] (b) (7)(F)
For example, at Embassies               and                  the LGF coordinator conducted                                                                                   [Redacted] (b) (5), [Redacted] (b) (7)(F)
background investigations. At Embassies[Redacted] (b) (5), [Redacted] (b) (7)(F) and        the FSNI
conducted the background investigations. In addition, the extent to which the FSNIs and LGF
coordinators checked the security contractors’ submitted information varied from post to post.
               [Redacted] (b) (5), [Redacted] (b) (7)(F)
The FSNIs in           randomly checked approximately 60 percent of the information submitted
by security contractors and subsequently presented a report of investigation and recommendation
                                                                                  [Redacted] (b) (5), [Redacted] (b) (7)(F)
for approval. In contrast, at Embassy            the FSNI relied entirely on the background                             [Redacted] (b) (5), [Redacted] (b) (7)(F)
investigations performed by the security contractor                      without verifying any of the
information received. As noted in Finding A, we found the local guard personnel files
                 [Redacted] (b) (5), [Redacted] (b) (7)(F)                                                                                                 [Redacted] (b) (5), [Redacted] (b) (7)(F)
maintained by             were incomplete. Further, at Embassy                          the LGF coordinator
recorded the results of his background investigation in each local guard’s personnel file.
                                      [Redacted] (b) (5), [Redacted] (b) (7)(F)
However, at Embassy               the LGF coordinator had not recorded any of the background
investigative work in the local guard personnel files, although he did explain the process used to
conduct the background investigations.

        (U) Because RSOs regularly rotate every 2–3 years, the standardization of oversight
procedures at every post is vital to promoting uniform oversight of the LGP contracts across the
Department. OIG found the extent to which RSOs maintained local guard personnel files
differed not only from embassy to embassy but also from RSO to RSO. When RSOs were
assigned to a new post, they had to learn how the previous RSO oversaw the LGP. At times, the
incoming RSO conducted vetting checks that the former RSO had not required. For example,
                                                                  [Redacted] (b) (5), [Redacted] (b) (7)(F)
according to the current RSO at              a review of the Department’s information maintained
by the Bureau of Consular Affairs for each local guard had not been performed by the previous
RSO. The current RSO believed it was a critical check that he had routinely performed at his
last post. Therefore, the RSO implemented the checks as part of his oversight, and the ARSO
had to conduct more than 400 consular affairs checks for all current local guards. At the time of
our fieldwork, all consular affairs checks had been completed for the current local guards
                                                 [Redacted] (b) (5), [Redacted] (b) (7)(F)
employed. In addition, at            , the ARSO stated that no set process was in place for local
guard vetting oversight at the time of his arrival at post.

       (U) Because oversight of the local guard vetting varied by post and RSO at the six posts
we audited, it became apparent that standardized Department-wide oversight guidance is needed
to ensure consistent documentation and oversight of the vetting and approval process, and to
address the challenges associated with the RSO rotation cycle.

        (U) Recommendation 10. OIG recommends that the Bureau of Diplomatic Security
        develop and issue guidance to ensure regional security officers implement uniform
        oversight of the Local Guard Program contracts as the contracting officer’s
        representative.

        (U) DS Response: DS did not provide a response to the draft report within the allotted
        timeframe.

                                                                         19
                                                             SENSITIVE BUT UNCLASSIFIED
                                                                    SENSITIVE BUT UNCLASSIFIED

                     (U) OIG Reply: OIG considers the recommendation unresolved and will follow up with
                     DS during the compliance process to ensure implementation of the recommendation.

                     (U) Recommendation 11. OIG recommends that the Bureau of Diplomatic Security
                     develop and adopt a standardized security validation form to facilitate regional security
                     officers’ oversight of the local guard vetting and approval process.

                     (U) DS Response: DS did not provide a response to the draft report within the allotted
                     timeframe.

                     (U) OIG Reply: OIG considers the recommendation unresolved and will follow up with
                     DS during the compliance process to ensure implementation of the recommendation.

(U) Other Matters
                                                                                        [Redacted] (b) (5), [Redacted] (b) (7)(F)

(U) Additional Issues Specific to Embassy                                                                           Regarding the Local Guard Program
                                            [Redacted] (b) (5), [Redacted] (b) (7)(F)
        (U) Embassy              did not have a complete, comprehensive roster of the local guards
who had worked at the post between October 1, 2010, and April 26, 2013. We were provided
four different local guard lists containing an aggregate of 122 names, but our analysis revealed
that only 26 of the names appeared on all the lists. Specifically, prior to our fieldwork at
[Redacted] (b) (5), [Redacted] (b) (7)(F)

          the RSO 32 provided us with a spreadsheet that contained the names of 70 guards.
However, when we arrived in country to start our fieldwork, the FSNI provided a list of 46 guard                                                                        [Redacted] (b) (5), [Redacted] (b) (7)(F)

names, 19 of which were not on the original RSO list of 70. The security contractor
provided another list that contained 110 guards who worked at the embassy. However, we found
12 guards on the original RSO list that were not on the security contractor’s list and 33 names
contained on the security contractor’s list that were not on the RSO’s original list or the FSNI’s
list. To address our concern regarding the 33 names found on the security contractor’s list but
not on any of the post’s lists, the ARSO 33 presented a fourth list containing 63 guards for the
same October 2010–April 2013 time period. The ARSO indicated 16 names on the security
contractor’s list had not been vetted through the security office, nor had the post received any                             [Redacted] (b) (5), [Redacted](b) (7)(F)

information about the guards from the security contractor                Two additional names of
the 33 found solely on the security contractor’s list had not been addressed by the ARSO. Upon
further inquiry, of these two, the ARSO could only provide a recertification for one of the
guards. The recertification, however, was dated in 1992. According to the FAM, all contract
employees must go through a background investigation on a 5-year cycle for the purpose of
issuing or denying recertification for employment. 34 The ARSO had no information about the
second guard. Therefore, we concluded that 18 local guards contained on the security
contractor’s list had not been properly vetted.

        (SBU) The fact that guards were on the RSO’s list but not on the security contractor’s list
raises the possibility that former guards could have had access to the embassy if their embassy
32
   (U) The RSO rotated to another position with the Department on May 17, 2013. A replacement RSO was
scheduled to arrive in June 2013.         [Redacted] (b) (5), [Redacted] (b) (7)(F)
33
   (U) The new ARSO rotated to Embassy                          in late April 2013.
34
   (U) 12 FAM 463.2 (c) (d), “Regional Security Officers (RSO).”
                                                                                20
                                                                    SENSITIVE BUT UNCLASSIFIED
                                                                               SENSITIVE BUT UNCLASSIFIED

badges had not been confiscated when they were no longer employed at the embassy. Guards
found on the security contractor’s list but not on the RSO list could also indicate that the security
contractor used and invoiced for guards who were not in fact approved. This would violate the        [Redacted] (b) (5), [Redacted] (b) (7)(F)
LGP contract terms. Thus, Embassy                may have had unvetted and unauthorized local
guards on premises or may have been billed for guards who were not approved.

        (U) In addition, while the audit team was at post, the ARSO told us that the new project   [Redacted] (b) (5), [Redacted] (b) (7)(F)

manager for the security contractor            had been issued an embassy badge without a
background check and approval. The ARSO retrieved the badge as soon as he identified the
issue in April 2013. The project manager began work in early March 2013, indicating that he
had access to the embassy for as many as 6 weeks without having a completed background
check.

        (U) The ARSO, who arrived in April 2013, identified several issues regarding the
oversight of the LGP and took remedial action. The ARSO said that there was no set process in
place for guard vetting oversight. As a practice, the RSO office was not made aware of any
guard applicant issues because the FSNI would deal directly with the security contractor
[Redacted] (b) (5), [Redacted] (b) (7)(F)
           and would not inform the RSO office. The ARSO now requires the FSNI to notify the
RSO office whenever any vetting issues arise. The ARSO has also implemented several                                                              [Redacted] (b) (5), [Redacted] (b) (7)(F)
oversight initiatives, such as weekly meetings with              project manager. In addition, the
ARSO is now involved with the FSNI interview of local guard applicants and requires the use of
local guard log books to ensure proper accountability for time charged. According to the ARSO,
it was apparent that in prior years the RSO office did not review the security contractor’s local
guard personnel files as part of its oversight. For example, the ARSO explained that he reviewed
about 30 percent of the security contractor’s local guard personnel files and found that only one
file contained all required documentation.

                     (U) Recommendation 12. OIG recommends that the Bureau of Administration, Office
                     of Logistics Management, Office of Acquisitions Management, review invoices
                     submitted by [Redacted] (b) (5), [Redacted] (b) (7)(F) for the Local Guard Program contract at
                                            [Redacted] (b) (5), [Redacted] (b) (7)(F)
                     Embassy            for the past 3 years to determine to what extent, if any, the security
                     contractor has used and invoiced for unapproved guards.

                     (U) AQM Response: AQM did not provide a response to the draft report within the
                     allotted timeframe.

                     (U) OIG Reply: OIG considers the recommendation unresolved and will follow up with
                     AQM during the compliance process to ensure implementation of the recommendation.
                                                                                                                                                                                              [Redacted] (b) (5), [Redacted] (b) (7)(F)
                     (U) Recommendation 13. OIG recommends that Embassy                 review all current
                     local guards employed at the embassy to ensure they have been properly vetted.
                                                       [Redacted] (b) (5), [Redacted] (b) (7)(F)                                                      [Redacted] (b) (5), [Redacted] (b) (7)(F)
                     (U) Embassy              Response: Embassy             agreed with the recommendation,
                     stating that the “RSO FSNIs have reviewed all current local guards employed at the
                     embassy to ensure they have all been properly vetted. There is now an excel spreadsheet
                     which tracks this for the FSNIs.”
                                                                                           21
                                                                               SENSITIVE BUT UNCLASSIFIED
                                           SENSITIVE BUT UNCLASSIFIED

       (U) OIG Reply: OIG considers the recommendation closed. OIG reviewed and               [Redacted] (b) (5), [Redacted] (b) (7)(F)
       accepted documentation showing that Embassy            reviewed all current local
       guards employed to ensure they have been properly vetted.
                                                                                                                                 [Redacted] (b) (5), [Redacted] (b) (7)(F)
       (U) Recommendation 14. OIG recommends that Embassy                 assess the controls
       over the badge issuing process for the embassy and implement changes to ensure persons
       do not receive an embassy badge without proper review and approval.
                     [Redacted] (b) (5), [Redacted] (b) (7)(F)                          [Redacted] (b) (5), [Redacted] (b) (7)(F)
       (U) Embassy             Response: Embassy              agreed with the recommendation,
       stating that the RSO must now sign a form to validate that an appropriate review has
       taken place and that “no one may be issued a badge without RSO/ARSO approval.”

       (U) OIG Reply: OIG considers the recommendation closed. OIG reviewed and                      [Redacted] (b) (5), [Redacted] (b) (7)(F)
       accepted an approval form showing that Embassy           implemented controls to
       ensure that no one receives an embassy badge without proper review and approval.
                                                                 [Redacted] (b) (5), [Redacted] (b) (7)(F)

(U) Additional Issues Specific to Embassy                                                      Regarding Local Guard Identification
Badges
                                                                                                                                                                             [Redacted] (b) (5), [Redacted] (b) (7)(F)
        (SBU) Unlike the other posts we audited, local guard personnel at Embassy
were not issued Embassy identification badges. Instead, they received a uniform and an
identification badge from the security contractor [Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                                        [Redacted] (b) (5), [Redacted] (b) (7)(F)
         (SBU) The size of the LGF at Embassy              is approximately 400 persons providing
24-hour protection at both the embassy and personal residences. Because of the size of the guard
force, it would be difficult for the embassy personnel to personally recognize all of the guards.       [Redacted] (b) (5), [Redacted] (b) (7)(F)
As such, the manner in which the local guards at Embassy               are identified and
distinguished as an Embassy employee is a critical issue. In addition, the RSO office does not
control [Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                                                                                               [Redacted] (b) (5), [Redacted] (b) (7)(F)
       (U) Recommendation 15. OIG recommends that Embassy                      implement the use
       of embassy badges, such as facility access cards, for all local guards.




                                                       22
                                           SENSITIVE BUT UNCLASSIFIED
                                     SENSITIVE BUT UNCLASSIFIED

             [Redacted] (b) (5), [Redacted] (b) (7)(F)   [Redacted] (b) (5), [Redacted] (b) (7)(F)
(U) Embassy              Response: Embassy               agreed with the
recommendation, stating that it had “recently received adequate shipments of GLID
[Global Identification] cards, laminate and associated supplies to issue badges for all
local guards. To date approximately 200 out of 530 guards have been issued GLID
badges.”

(U) OIG Reply: OIG considers the recommendation resolved. The recommendation can                     [Redacted] (b) (5), [Redacted] (b) (7)(F)
be closed when OIG reviews and accepts documentation showing that Embassy
implemented the use of GLID cards for all local guards.




                                                 23
                                     SENSITIVE BUT UNCLASSIFIED
                                                                            SENSITIVE BUT UNCLASSIFIED


                                                                            (U) List of Recommendations

(U) Recommendation 1. OIG recommends that Embassy [Redacted] (b) (5), [Redacted] (b) (7)(F)
[Redacted] (b) (5), [Redacted] (b) (7)(F)
                  fulfills all contract requirements pertaining to background investigations and
maintains the local guard personnel files in accordance with contract requirements.
                                                                                                 [Redacted] (b) (5), [Redacted] (b) (7)(F)         [Redacted] (b) (5), [Redacted] (b) (7)(F)
(U) Recommendation 2. OIG recommends that Embassy
[Redacted] (b) (5), [Redacted] (b) (7)(F)
                                                                      ensure that
             fulfills all contract requirements pertaining to background investigations and
maintains the local guard personnel files in accordance with contract requirements.

(U) Recommendation 3. OIG recommends that the Bureau of Administration, Office of
Logistics Management, Office of Acquisitions Management, in coordination with Embassy
[Redacted] (b) (5), [Redacted] (b) (7)(F)
           modify the Local Guard Program contract to compensate for the limitation inherent to
[Redacted] (b) (5), [Redacted] (b) (7)(F)
          and implement an acceptable alternative to ensure background investigations are
completed in accordance with contract requirements.

(U) Recommendation 4. OIG recommends that the Bureau of Administration, Office of
Logistics Management, Office of Acquisitions Management, in coordination with Embassy
[Redacted] (b) (5), [Redacted] (b) (7)(F)
       modify the Local Guard Program contract to compensate for the privacy law limitations
                                [Redacted] (b) (5), [Redacted] (b) (7)(F)
inherent to       and implement an acceptable alternative to ensure background investigations
are completed in accordance with contract requirements.

(U) Recommendation 5. OIG recommends that the Bureau of Administration, Office of
Logistics Management, Office of Acquisitions Management, in coordination with Embassy
[Redacted] (b) (5), [Redacted] (b) (7)(F)
         modify the Local Guard Program contract to compensate for the privacy law limitations
                                [Redacted] (b) (5), [Redacted] (b) (7)(F)
inherent to        and implement an acceptable alternative to ensure background investigations
are completed in accordance with contract requirements.
                                                                                                 [Redacted] (b) (5), [Redacted] (b) (7)(F)   [Redacted] (b) (5), [Redacted] (b) (7)(F)
(U) Recommendation 6. OIG recommends that Embassy                 ensure that      fulfills all
contract requirements pertaining to background investigations and maintains the local guard
personnel files in accordance with contract requirements.

(U) Recommendation 7. OIG recommends that the Bureau of Administration, Office of
Logistics Management, Office of Acquisitions Management, in coordination with Embassy
[Redacted] (b) (5), [Redacted] (b) (7)(F)

            modify the Local Guard Program contract to compensate for the limitations inherent
      [Redacted] (b) (5), [Redacted] (b) (7)(F)

to            and implement an acceptable alternative to ensure background investigations are
completed in accordance with contract requirements.

(U) Recommendation 8. OIG recommends that the Bureau of Administration, Office of
Logistics Management, Office of Acquisitions Management, in coordination with the Bureau of
Diplomatic Security, ensure that local privacy laws and practical limitations on vetting are
considered in Local Guard Program contracts and alternative guard vetting procedures are
adopted and incorporated into contracts when necessary.



                                                                                        24
                                                                            SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

(U) Recommendation 9. OIG recommends that the Bureau of Diplomatic Security develop and
issue guidance and training that prepares regional security officers for the periodic transition of
Local Guard Program contracts, with a focus on planning for the transition and ensuring that
local guards are vetted prior to placing them on duty.

(U) Recommendation 10. OIG recommends that the Bureau of Diplomatic Security develop
and issue guidance to ensure regional security officers implement uniform oversight of the Local
Guard Program contracts as the contracting officer’s representative.

(U) Recommendation 11. OIG recommends that the Bureau of Diplomatic Security develop
and adopt a standardized security validation form to facilitate regional security officers’
oversight of the local guard vetting and approval process.

(U) Recommendation 12. OIG recommends that the Bureau of Administration, Office of                                                            [Redacted] (b)
                                                                                                                                                          [Red,
                                                                                                                                                             (5)acted]
                                                                                                                                                                 [Redacted]
                                                                                                                                                                       (b) (5),(b)
                                                                                                                                                                                [Redacted]
                                                                                                                                                                                   (7)(F)  (b) (7)(F)
Logistics Management, Office of Acquisitions Management, review invoices submitted by                      [Redacted] (b) (5), [Redacted] (b) (7)(F)
[Redacted] (b) (5), [Redacted] (b) (7)(F)
                                          for the Local Guard Program contract at Embassy for the
past 3 years to determine to what extent, if any, the security contractor has used and invoiced for
unapproved guards.
                                                               [Redacted] (b) (5), [Redacted] (b) (7)(F)
(U) Recommendation 13. OIG recommends that Embassy                 review all current local
guards employed at the embassy to ensure they have been properly vetted.
                                                             [Redacted] (b) (5), [Redacted] (b) (7)(F)
(U) Recommendation 14. OIG recommends that Embassy                 assess the controls over the
badge issuing process for the embassy and implement changes to ensure persons do not receive
an embassy badge without proper review and approval.
                                                            [Redacted] (b) (5), [Redacted] (b) (7)(F)
(U) Recommendation 15. OIG recommends that Embassy                                        implement the use of
embassy badges, such as facility access cards, for all local guards.




                                          25
                              SENSITIVE BUT UNCLASSIFIED
                                     SENSITIVE BUT UNCLASSIFIED


                                                                                         (U) Appendix A
                                       (U) Scope and Methodology
        (U) The Department of State (Department), Office of Inspector General (OIG), Office of
Audits, conducted this audit to determine whether security contractors had complied with Local
Guard Program (LGP) contract requirements for vetting the suitability of local guards at posts
overseas and whether regional security officers (RSOs) performed adequate oversight of the
local guard vetting process.

       (U) OIG conducted fieldwork for this audit from March 2013 to September 2013 in the
Washington, DC, metropolitan area and at six overseas posts. Six LGP contracts were selected,
representing the six posts: [Redacted] (b) (5), [Redacted] (b) (7)(F)


                              The sampling methodology employed is described in the
Detailed Sampling Methodology section of this appendix.

        (U) OIG conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require the OIG plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for the findings and
conclusions based on the audit objective. We believe that the evidence obtained provides a
reasonable basis for the findings and conclusions based on the audit objective.

       (U) To obtain background information and criteria on LGP contracts, we reviewed the
Foreign Affairs Manual (FAM), Foreign Affairs Handbook (FAH), the six individual LGP
contracts, and additional guidance from Department cables related to the local guard vetting
process. In addition, we reviewed prior audit work conducted by OIG and the Government
Accountability Office.

       (U) In the Washington, DC, metropolitan area, we interviewed officials from the Bureau
of Diplomatic Security (DS) and the Bureau of Administration, Office of Logistics Management,
Office of Acquisitions Management (AQM). At the posts, we interviewed several officials,
including the RSO and the assistant regional security officer (ARSO), who often serve as the
contracting officer’s representative (COR) 1 for the LGP contract at post, Foreign Service
National Investigator, and local guard force coordinator. We also interviewed managers
representing the security contractors.

        (U) We reviewed LGP contract summaries, post estimated local guard counts, and
security environment threat lists, program management reviews, cure notices, deficiency notices,
and deduction letters. We also reviewed RSO satisfaction with LGP contracts obtained from a
survey conducted during a previous OIG audit.




1
    (U) The RSO or ARSO generally serves as the COR for local guard security contracts at post.
                                                 26
                                     SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


(U) Use of Computer-Processed Data

       (U) OIG assessed the reliability of computer-processed data by comparing contract data
obtained from querying the Federal Procurement Data System to the contract data provided by
DS and AQM. From these comparisons, we determined that the data were sufficiently reliable to
support the conclusions and recommendations in this report.

(U) Work Related to Internal Controls

        (U) OIG performed steps to assess the adequacy of internal controls related to the areas
audited. We gained an understanding of Department guidance and posts procedures for ensuring
that local guards are properly vetted and discussed specific LGP contract requirements with
bureau officials to better understand the reasons for varying vetting procedures and oversight.
For example, we reviewed security contractors’ local guard personnel files and RSOs’ local
guard personnel files to ensure the security contractors were following the terms and conditions
of the LGP contract and the RSOs were providing oversight to ensure all the local guards had the
required qualifications as stated in contract terms. Work performed on internal controls during
this audit is detailed in the Audit Results section of this report.

(U) Detailed Sampling Methodology

       (U) OIG’s sampling objective was to determine to what extent security contractors had
complied with requirements contained in LGP contracts for vetting local guards at overseas posts
and whether RSOs had adequately performed oversight of the vetting process.

       (U) Identification of the Universe of Contracts

       (SBU) OIG identified 100 LGP contracts. This initial universe (or population) was
reduced to 91 contracts for possible site review because of scope and security considerations.
More specifically, six LGP contracts were removed from the universe because they started after
October 1, 2012, and were not in place during fiscal years 2011 and 2012. Another three LGP
contracts were eliminated because they were for posts with a critical threat level for terrorism, so
fieldwork at these locations was deemed unnecessary to fulfill the objectives of the audit. This
revised universe of 91 LGP contracts was then sorted by regional bureaus, number of local
guards, and terrorism threat levels.

       (U) Selection of Samples

       (U) OIG selected overseas posts in [Redacted] (b) (5), [Redacted] (b) (7)(F)
                                                               OIG used a non-statistical sampling
method known as judgment sampling to select the posts for site visits and testing. Because this
method uses discretionary criteria to effect sample selection, OIG was able to use information
garnered during its preliminary work to aid in making informed selections.

       (SBU) Within three regional bureaus AF, EUR, and WHA, OIG selected LGP contracts
based on, among other factors, the estimated number of local guards employed and the terrorism
                                          27
                              SENSITIVE BUT UNCLASSIFIED
                                                   SENSITIVE BUT UNCLASSIFIED

        threat level as of March 20, 2013. 2 The geographical distribution of the selected LGP contracts
        was also a factor; two posts were selected in each of the three previously cited overseas bureaus.
        The criteria for the selection of posts also included logistical considerations and the recentness of
                                                     [Redacted] (b) (5), [Redacted][Redacted]
                                                                                    (b) (7)(F) (b) (5), [Redacted] (b) (7)(F)
        site visits by OIG. For example,           and         , which according to DS are the second- and
        third- highest in AF with respect to the total number of local guards, were not selected because
        OIG audit and inspection teams had recently visited these posts for security related reviews. Of
        the six LGP contracts selected, four were domestic contractors [Redacted] (b) (5), [Redacted] (b) (7)(F)
                                                                                                   and two were
        foreign contractors [Redacted] (b) (5), [Redacted] (b) (7)(F)                                         A
        breakdown of the selection of posts is included in Table 3.

                 (U) To effect sample selection of local guards at the selected posts, OIG reviewed the
        LGP contracts for the six selected posts obtained from DS and then contacted the respective
        posts to obtain a list of local guards that had worked on the LGP contract from October 1, 2010,
        to April 26, 2013. Random sampling was used to select the local guard personnel files for
        review at each post. The total number of local guards, as well as the sample size selected at each
        post, is provided in Table 3.

        (SBU) Table 3. Audited Posts and Universe and Sample Size of Local Guard Force
                                                                                                                                Number
                                                       Terrorism                                                                         Sample
                        Post                Bureau                                                       Security Contractor      of
                                                      Threat Level                                                                        Size
                                                                                                                                Guards
[Redacted] (b) (5), [Redacted] (b) (7)(F)              [Redacted] (b) (5), [Redacted] (b) (7)(F)
                                              AF                                                                                           75

                                              AF                                                                                           87
                                             EUR                                                                                           28

                                             EUR                                                                                           65

                                             WHA                                                                                           69

                                             WHA                                                                                           48


            (SBU) Source: OIG generated this table from data obtained at DS, AQM, and at posts.


                (U) The audit team developed a data collection matrix for use during the review of each
        selected local guard personnel file. Because the LGP contract terms identify country specific
        requirements, we compared these terms to the baseline contract to determine the necessity and
        ramifications of these adjustments to the standard contract. Therefore, the data collection matrix
        was slightly modified to fit LGP contract specification at posts. The data collection matrix
        addressed each document the local guard security contractors and the RSOs were required to
        keep throughout the life of the contract. We analyzed the data gathered from each personnel file
        and annotated in the data collection matrix if the required documentation was maintained and the
        RSOs and the security contractors were following internal controls and/or contract terms.

        2
          (SBU) Terrorism threat level derived from the Department’s Security Environment Threat List (SETL). Terrorism
        threat levels were changed in October 2013; [Redacted] (b) (5), [Redacted] (b) (7)(F)

                                                               28
                                                   SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


(U) Information Validation

       (U) To determine if the universe list received from post was accurate, the audit team took
a sample of the guards working on the Embassy compound on the second day of field work at
post. To maintain a consistent methodology at each post, and to preclude possible bias, each
team walked the Embassy grounds at 9:00 a.m. on the second day of the post visit and collected
the name, address, phone number, and date of birth from the guards on duty. We tested the
information provided for 126 guards at the six audited posts. We verified and confirmed for 126
guards the information provided by post was accurate for audit purposes.

(U) Approved Guard Verification

        (U) In order to verify that the security contractor used only guards who were vetted and
approved to work at the embassy, as stated in the LGP contract terms, we requested a copy of the
security contractor’s guard sign-in logs for the weeks of December 9–15, 2012, and March 3–9,
2013. We compared all of the names listed on the duty logs with the names listed on the
universe of approved guards obtained from post. In addition, we requested a copy of the
invoices for December 2012 and March 2013. We compared all the names listed on the invoices
with the names listed on the universe list. Because we conducted the field work in May, and
assuming April invoices were not ready for review, we selected March to capture information
from recent invoices. In addition, we selected December to capture information from a different
quarter.




                                         29
                             SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


                                                         (U) Appendix B
                                (U) Outline for Action

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                      30
                          SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED



[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                               31
                                   SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                     32
                         SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



[Redacted] (b) (5), [Redacted] (b) (7)(F), [Redacted] (b) (6)




[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                      33
                          SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




                                  UNCLASSIF1ED



                                                 Attachment 1
[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                34
                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED




                                     UNCLASSIFIED




[Redacted] (b) (5), [Redacted] (b) (7)(F), [Redacted] (b) (6)




                                SENSITIVE RlrT LNCLi\SSII lED




                                              6
                                     UNCLASSIFIED




                                   35
                       SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


                                                                                                      (U) Appendix C
                          (U) Security Validation Form

                 [Redacted] (b) (5), [Redacted] (b) (7)(F)



                             SECUIUTY VALIDATION FORM

I)ATE:

FRO M:          REGIONAL SECURITY OFFICER

SUBSECT:

REFERENCE:

Tlus office has reviewed the Subject's case with respect to the proposed action.

SECURJT Y DECISION:

1. _ _ Certification for employment is granted.
(3 F AM 922.2)

2. _ _Celiification for employment is re-validated.
(3 PAM 922.2)

3. _ _ No objection is interposed to the employment of Subject for contractual hire by



4. _ _ 'l11is office recommends against the proposed relationship; please advi~e the office of
action taken.

5. _ _ On the basis of infom1ation avail able to this office, certification for the proposed action
cannot be granted. This action is based solely on security and suitability factors; please advise
the office of action taken. (3 F AM 922.2)

REMARKS

__ 'l11is is not to be construed as ce1iification for emp loyment on the regular Forei~:,m Service
Payroll.

__ This does not constitute approval for access to adnunistratively controlled or classified
material

__ It is understood tl1at Subject will be working off official Embassy premises and will not
have access to any administratively controlled materials or areas in which such operations are
undertaken.

     Other:



Printed Name:_ _ _ _ _ __                                 Date: _ _ _ _ _ _ __
Signature: _ _ _ _ _ _ _ _ _ _ _ _ __                      Title:   Regional Security Officer




                                     36
                         SENSITIVE BUT UNCLASSIFIED
                                      SENSITIVE BUT UNCLASSIFIED


                                                                       [Redacted] (b) (5), [Redacted] (b ) (7)(F)
                                                                                                                                                    (U) Appendix D
                                    (U) Embassy                                                         Response

[Redacted] (b) (5), [Redacted] (b) (7)(F), [Redacted] (b) (6)




         DATE:                  April 16, 2014

         TO:                    Nonmu1 P. Brown, Assistm1t Inspector General for Audits
                                                                                        [Redacted] (b) (5), [Redacted] (b) (7)(F)
         FROM:                  Regional Security Officer (RSO)

                      [Redacted] (b) (5), [Redacted] (b) (7)(F)
         SUBJECT:                            Response to the Draft Repo1t- Audit of Contractor Compliance
         with and Department of State Oversight of the Process Required for Vetting Local
         Guards
                                                                                                             [Redacted] (b) (5), [
                                                                                                     Redacted] (b) (7)(F) [Redacted] (b) (5), [Redacted] (b) (7)(F)
         (U) Recommemlation 1. OIG recommends that Embassy                                           ensure       that
         [Redacted] (b) (5), [Redacted] (b) (7)(F)
                                             fulfills all contract requirements pertainin g to ba.c kground
         investigations and maintains the local guard personnel fi les in accordance with contract
         requirements.

         RSO agrees with this recommendation.
                                   [Redacted] (b) (5), [Red
         RSO encouraged                                    toacted]  (b) (7)(F)
                                                                create a check list which fulfills all contract requirements
         pertaining to B!s, ARSO has verified the existence ofthis check list and has ensured that
         this checklist is included in each employee nomination package. Additionally, the RSO
         Foreign Service National Investigators have created their own check list and excel
                                                                    [Redacted] (b) (5), [Redacted] (b) (7)(F)
         spreadsheet to ensure that each                                                 nomination package includes all
         documentation required by the contract. If discrepancies are found the process is stopped
               [
         until Redacted] (b) (5), [Redacted]
                                    provides (b) (7)(F)
                                                        the required documentation.
                                                                                                                                     [Redacted] (b) (5), [Redacted] (b) (7)(F)
         ARSO has on three separate occasions conducted reviews to ensure that I           is
         maintaining the local guard personnel flies in accordance with contract requirements.
         ARSO will continue to periodically check these documents.




                                                  37
                                      SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




                                                                   [R
(U) Reconmtcndation 13. OIG reconunends that Embassy edacted] (b) (5), [Redacted]
                                                                        review    (b) (7)(F)
                                                                                       all cutTen!
local guards employed at the embassy to ensure they have been properly vetted.

RSO agrees with this recommendation.

RSO FSN!s have reviewed aU current local guards employed at the embassy to ensure
they have all been properly vetted. There is now an excel spreadsheet which tracks this
for the FSN!s.



                                                                   [Redacted] (b) (5), [Redacted] (b) (7)(F)
(lJ) Recommendation 14. OIG recommends that Embassy                assess the contro.ls
over the badge issuing process for the embassy and implement changes to ensure persons
do not receive an embassy badge without proper review and approval.

R SO agrees with this recommendation.

RSO has assessed the process o,{badge issr~ance and to address this issue there is a form
which the RSO must sign which validates the appropriate review, no one may be issued a
badge without RSOIARSO approval.




                                    38
                        SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


                                                  [Redacted] (b) (5), [Redacted] (b) (7)(F)
                                                                                               (U) Appendix E
                         (U) Embassy                                                Response


                                        [Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                       April 15,2014




Mr. Norman P. Brown
Assistant Inspector General for Audits
Office of the Inspector General
U.S. Department of State

Embassy [Redacted] (b) (5), [Redacted]
                                thanks (b) (7)(F)
                                                 the OIG for the comprehensive review of local guard vetting
procedures and related contract issues raised during the course of the inspector's review
and validation process as detailed in Interim OIG Report - 14-AUD-HCI- XXX April
2014. Post has reviewed, in detail, the OIG findings and recommendations. While Post
fundamentally agrees with the findings, we would first like to respond formally to a few
specific topics which we believe are key to ensuring the validity and capture necessary
nuance in your Final Report:


                                            DRAFT TEXT




Original Text

[Redacted] (b) (5), [Redacted] (b) (7)(F)

Post Comment

[Redacted] (b) (5), [Redacted] (b) (7)(F)

Suggested Correction

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                       39
                           SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                    40
                        SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED




[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                     41
                         SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED




[Redacted] (b) (5), [Redacted] (b) (7)(F), [Redacted] (b) (6)




                                             42
                                 SENSITIVE BUT UNCLASSIFIED
                                            SENSITIVE BUT UNCLASSIFIED


                                                                                 [Redacted] (b) (5), [Redacted] (b) (7)(F)
                                                                                                                             (U) Appendix F
                                               (U) Embassy                                             Response



                                                   [Redacted] (b) (5), [Redacted] (b) (7)(F)



                                                                       Apri19, 2014



Mr. Norman P. Brown
Assistant Inspector General for Aud its
Otlice of Inspector General
Oftice of Audits
1700 N. Moore St., Suite [Redacted] (b) (6)
Ro~slyn, VA 22209


Dear Mr. Brown:

In response to the Office of Inspector General (OIG) findings regarding vetting
J'equirements outlined in the Local Guard Program (LGP) comract not being in
                                                                        [Redacted] (b) (6), [Redacted] (b) (5), [Redacted](b) (7)(F)
complete accordance with the contract tem1s due to the pri vacy laws in             , U.S.
          [Redacted](b) (6), [Redacted] (b) (5), [Redacted] (b) (7)(F)
Embassy             concurs with the OIG recommendation to modify the LGP
contract.

The Oflicc of Overseas Protective Operations (OPO) in conjunction with the
Regional Security Office agrees to modify the contract accordingly. Upon
notification fi·om the OIG that there was a deficiency found in vetting personnel,
the Regional Security Office was made aware that OPO assembled a working
group to put fonh recommendations to recti fy vetting process shortfalls. Once the
recommendations have been approved by the Diplomatic Security Service they
wiII be distri bu ted to the field for implementation.

                                                              [Redacted] (b) (6), [Redacted] (b) (5)




       [Redacted] (b) (6), [Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                        43
                                            SENSITIVE BUT UNCLASSIFIED
                                     SENSITIVE BUT UNCLASSIFIED


                                                                      [Redacted] (b) (5), [Redacted] (b) (7)(F)
                                                                                                                      (U) Appendix G
                                    (U) Embassy                                                    Response

[Redacted] (b) (5), [Redacted] (b) (7)(F)




               SENSITIVE BUT UNCLASSIFIED
               MEMORANDUM


               DATE:           April 15,2014

               TO:            OIG-Norman P. Brown
                                      [Redacted] (b) (5), [Redacted] (b) (6)

              TIIRU:          DCM -

               FROM:          RSO -

              SUBJECT:        O!G Audit of Contractor Compliance for Veuing Local Guards
                                                                    [Redacted] (b) (5), [Redacted] (b) (6)
               REFERENCE: OIG Letter to Ambassador                                              dated April 2, 2014


              Post thanks you for the opponunity to submit a compliance report reference the April
              2014 OIG Audit of"Contractor Compliance with and Department of State Oversight of
              the Process Required for Vetting Local Guards." RSO, in coordination \\.ith AILM, is the
              action/coordinating entity for Recommendation Number 5. Post has reviewed the
              recommendation in the report and has the following update:

              Recommendation NumberS. OIG recommends that the Oureuu of Administration,
              Office of Logistics Management, Office of Acquisitions Management, in
                                          [Redacted] (b) (5), [Redacted] (b) (7)(F)
              coordination with Embassy                      modify the Local Guard Program contract to
              compensate for the privacy law limitations inherent to [Redacted] (b) (5),an
                                                                                         [Redacted] (b) (7)(F)
                                                                                            d implement an
              acceptable alternative to ensure background investigations arc completed in
              nceordunce with contract req uirements.

              Post Response: Post is currently in the process of soliciting a new guard contract.
              Companies must submit their bids by April 16,2014. Post hM conferred with NLM and
              assesses that changing the solicitation to comply with Recommendation Number 5 at this
              time would delay the contract process. Instead, Post has coordinated with AILM to issue
              a contract modification after the contract is awarded. The modification will make the
              following changes to the contract:

                     I. Remove all contractor requirements regarding police checks;
                     2. Remove all contractor requirements regarding credit checks;
                     3. Remove aU contractor requirements regarding residence checks;




                                                 44
                                     SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED




     4. Remove aU contractor requirements regarding checks of previous employment or
        previous supervisors.

As noted in the recommendation, these types of checks are illegal under[Redacted] (b) (5),privacy
                                                                                          [Redacted] (b) (7)(F)


laws. As an alternative, Post currently treats prospective guards like any other Embassy
employee with respect to receiving a Post badge. All guards undergo a background
check conducted by Post Foreign Service National Investigators that includes:

    I . Police criminal history check;
    2. Residence check;
    3. Previous Employment.
                                     ) (5), [Redacted] (b) (7)(F)
Financial Institutions in [Redacted] (bare zealous in protecting financial information, so Post has
no alternate means to conduct a credit check.
          [Redacted] (b) (5),
Although          p[Redacted] (b) (7)(F)
                    rivacy laws forbid entities from sharing medical information,
prospective contractors can arrange their own medical exams and still certify to Post that
prospcctivc guards meet required medical standards.




                                                                    2




                                            45
                                SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


                                                       [Redacted] (b) (5), [Reda cted] (b) (7)(F)
                                                                                                                (U) Appendix H
                             (U) Embassy                                          Response



                                     SENSITIVE BUT UNCLASSIFIED




                [Redacted] (b) (5), [Redacted] (b) (7)(F)



                                                                                                    April24, 014


MEMORANDUM
SENSITIVE BUT UNCLASSIFIED

TO:                      Norman P. Brown, Assistant Inspector General for                                     dits
                         [Redacted] (b) (5), [Redacted] (b) (7)(F), [Redacted] (b) (6)
THROUGH:


FROM:


SUBJECT:                 Response to the Audit of Contractor Compliance wi and
                         Department of State Oversight of the Process ReqJir d for
                                                 [Redacted] (b) (5), [Redacted] (b) (7)(F)
                         Vetting Local Guards in                                           .


During its inspection, OIG found that required documentation was mi~si g from
the 69 local guard personnel files sampled. The most notable example lw s that 37
of 69 (54 percent) local guard personnel files were missing proof of the equired
hours of initial basic training. [Redacted] (b) (5), [Redacted] (b) (7)(F)
                                                                not all o the
vetting requirements were completed before local guards were placedo duty.

OIG Recommendation: Embassy [Redacted] (b) (5), ensure
                                                [Redacted] (b) (7)(F)
                                                                that [Redacted] (b)fulfills
                                                                                    (5), [Redacted] (b) (7)(F)
                                                                                                  all con ract
requirements pertaining to background investigations and maintains the ocal guard
personnel files in accordance with contract requirements.
                                                                                                                     1
RSO Response: In an effort to ensure [Redacted] (b)fulfills
                                                    (5), [Redacted] (b) (7)(F)
                                                                  all contract requireJ e ts
pertaining to background investigations and maintains the local guard rsonnel                             b
files in accordance with contract requirements, RSO[Redacted] (b) (5), [Redacted]   (b) (7)(F)
                                                                               created      a




                                         46
                             SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




                            SENS ITIVE BUT UNCLASSIFIED



comprehensive file management review system to ensure 100% compli ce. The
implementation of the system included a historic review of all the loc~l
personnel files to ensure each file contained all vetting requirements an was in
full compliance with all contractual obligations. Personnel files that , e e
                                                 [Redacted] (b) (5), [Redacted] (b) (7)(F)
discovered to be non-compliant were directed to          for immediate a<i:ti n to
ensure all missing documents required per the contract were fulfilled .        a
continuous basis, the Local Guard Coordinator reviews 100% of the file in
conjunction with the Contracting Officer Representative (COR). RSd                           [Redacted] (b) (5), [Redacted] (b) (7)(F)


considers all files 100% in compliance.




                                  47
                      SENSITIVE BUT UNCLASSIFIED
                                        SENSITIVE BUT UNCLASSIFIED


                                                                          [Redacted] (b) (5), [Redacted] (b) (7)(F)
                                                                                                                                 (U) Appendix I
                                   (U) Embassy                                                                        Response

[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                                                                                May 2, 2014



                Norman P. Brown
                Assistant Inspector General for Audits
                Office of Inspector General (OIG)
                Office of Audits
                Washington, D.C.

                Dear Mr. Brown:

                 In response to your request for Post's review and comment on the draft
                 report Audit ofContractor Compliance with and Department ofState
                 Oversight ofthe Process Required for Vetting Local Guards, U.S. Embassy
                [Redacted] (b) (5), [Redacted] (b) (7)(F)
                                            agrees with the recommendation and offers the following
                 comment:
                                            [Redacted] (b) (5), [Redact
                                                             ed] (b) (7)(F)
                The U.S. Embassy                               Contracting Officer Representative (COR)
                                                                            [Redacted] (b) (5), [Redacted] (b) (6)
                Assistant Regional Security Office (ARSO)                                                          has spoken
                      [Redacted] (b) (5), [Redacted] (b) (6)
                with                                         They have discussed several possible courses
                of action that may be taken to ensure that guard force candidates are
                properly vetted within the terms of the contract. Because [Redacted] (b) (5), [Redacted]                    (b) (7)(F)
                                                                                                                        lacks
                resources and is limited in record-keeping capabilities, the COR and OPO
                are working on a solution with AQM to modify the current contract and/or to
                create standards for alternative documentation that will be outlined in the
                solicitation for the 2015 contract.

                                                                                                                  Sincerely,
                                                                                      [Redacted] (b) (5), [Redacted] (b) (6)




                                                    48
                                        SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


(U) Major Contributors to This Report

(U) Denise Colchin, Director
Human Capital and Infrastructure Division
Office of Audits

(U) Melissa Bauer, Audit Manager
Human Capital and Infrastructure Division
Office of Audits

(U) Yvens Dalmeida, Senior Auditor
Human Capital and Infrastructure Division
Office of Audits

(U) Frank Forgione, Auditor
Human Capital and Infrastructure Division
Office of Audits

(U) Brian Stratton, Auditor
Human Capital and Infrastructure Division
Office of Audits

(U) Meredith Needham, Program Analyst
Human Capital and Infrastructure Division
Office of Audits




                                        49
                            SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
  HURTS EVERYONE.

         CONTACT THE
 OFFICE OF INSPECTOR GENERAL
            HOTLINE
      TO REPORT ILLEGAL
   OR WASTEFUL ACTIVITIES:


       202-647-3320
       800-409-9926
   oighotline@state.gov
       oig.state.gov

 Office of Inspector General
  U.S. Department of State
        P.O. Box 9778
     Arlington, VA 22219




            50
SENSITIVE BUT UNCLASSIFIED
